<html>
<title> - BUILDING BACK WITH JUSTICE: ENVIRONMENTAL JUSTICE IS CENTRAL TO THE AMERICAN JOBS PLAN</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      BUILDING BACK WITH JUSTICE:
                    ENVIRONMENTAL JUSTICE IS CENTRAL.
                       TO THE AMERICAN JOBS PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2021

                               __________

                           Serial No. 117-35

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________

                  U.S. GOVERNMENT PUBLISHING OFFICE                    
45-370 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                                
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Russ Anello, Staff Director
               Emily Burns, Max Whitcomb, Gina Kim, Staff
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2021....................................     1

                               Witnesses

Richard Moore, Co-Coordinator, Los Jardines Institute, National 
  Co-Coordinator, Environmental Justice Health Alliance, Co-
  Chair, White House Environmental Justice Advisory Council
Oral Statement...................................................     7

Nicole Lee Ndumele, Vice President, Racial Equity and Justice, 
  Center for American Progress
Oral Statement...................................................     8

Harold Mitchell, Founder and Executive Director, ReGenesis 
  Community Development CorporationMember, White House 
  Environmental Justice Advisory Council
Oral Statement...................................................    10

Raya Salter, Esq., Member, New York State Climate Action Council
Oral Statement...................................................    12

Michael Leon Guerrero, Executive Director, Labor Network for 
  Sustainability
Oral Statement...................................................    13

Shay Hawkins, Chairman and Chief Executive Officer, Opportunity 
  Funds Association
Oral Statement...................................................    15

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

  * Letter - Letter from the Oversight Committee Initiating 
  Investigation into the Veterans Administration; submitted by 
  Rep. Maloney.

  * Report - Subcommittee on the Coronavirus Crisis Reports on 
  Waste, Fraud, and Abuse; submitted by Rep. Maloney.

  * Article - ``How a Tax Break to Help the Poor Went to NBA 
  Owner, Dan Gilbert,'' ProPublica; submitted by Rep. Tlaib.

  * Article - ``After Nevada GOP Pushed, Treasury Changed 
  Lucrative Policy Benefitting One County,'' The Washington Post; 
  submitted by Rep. Tlaib.

  * Article - ``Boston's Heat Islands Turn Lower-Income 
  Neighborhoods from Hot to Insufferable,''  The Boston Globe; 
  submitted by Rep. Pressley.

The documents are available at: docs.house.gov.

 
                      BUILDING BACK WITH JUSTICE:
                    ENVIRONMENTAL JUSTICE IS CENTRAL
                       TO THE AMERICAN JOBS PLAN

                              ----------                              


                        Wednesday, July 21, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Khanna, Mfume, Ocasio-Cortez, Tlaib, 
Porter, Bush, Davis, Wasserman Schultz, Johnson, Sarbanes, 
Kelly, DeSaulnier, Gomez, Pressley, Comer, Gosar, Foxx, Hice, 
Grothman, Cloud, Norman, Keller, Sessions, Donalds, Herrell, 
LaTurner, Fallon, and Franklin.
    Chairwoman Maloney. [Presiding.] The committee will come to 
order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    On January 27, President Biden issued an executive order 
expressing his resolve to tackle climate change by creating 
good jobs and ensuring all agencies' decisions consider climate 
impacts. Executive Order 14008 contained a groundbreaking new 
policy with the potential to transform how we measure 
environmental harm and how we share economic opportunity across 
our country. Known as the Justice40 Initiative, President Biden 
has committed to ensuring that the communities most impacted by 
pollution receive at least 40 percent of the benefits of the 
Administration's ambitious infrastructure investments. 
President Biden made this goal a key part of the Build Back 
Better Plan in order to ensure that climate investments advance 
racial and economic justice.
    And getting this done right will be a key part of this 
committee's agenda because, for the many communities that have 
waited far too long for progress, this is a matter of life and 
death. This is life and death for people in Congresswoman 
Tlaib's district in Detroit, where heavy industry and thick 
congestion have increased asthma hospitalization rates, 
including in young children. This is a life and death for 
hundreds of thousands of people in Congresswoman Cori Bush's 
district in Missouri, who live with confirmed or suspected 
exposure to radioactive waste. According to the Government 
Accountability Office, her constituents may be ``the tip of the 
iceberg.'' This is also life and death for my constituents who 
are plagued by dirty power plants, including the massive 
Ravenswood Generation Station, which sits right next door to 
the largest public housing development in North America. And 
polluting sites surround Baruch Houses, StuyTown and Peter 
Cooper Village, and NRG's fossil gas proposal near the Astoria 
houses in Ocasio-Cortez's district.
    Today's witnesses are environmental justice leaders 
appointed to the White House Environmental Justice Advisory 
Council, which released an excellent list of implementation--
implementation recommendations in May. Among them was a very 
important piece of common sense. In addition to ensuring 40 
percent of our climate and infrastructure investments go to 
hard hit communities, we need to make sure that none of these 
investments hurt these communities. Using some investments to 
cause pollution and other funds to stop it falls far short of 
what our hardest hit communities need. Children are getting 
sick. People are dying. We must get this right. Now it's up to 
the White House, Federal agencies, and Congress to make 
Justice40 a reality.
    Yesterday, the White House released its interim 
implementation guidance, directing agencies to immediately 
begin work with OMB to implement Justice40 over the next 150 
days. Agencies are required to deliver clean methodologies for 
calculating and targeting benefits, as well as reports on the 
percentage of benefits that actually go to impacted 
communities. These reports will convey agencies' progress on 
tangible improvements, like new wastewater systems in impacted 
communities. Importantly, the guidance also establishes a pilot 
effort that directs 21 programs to go beyond the 40 percent 
target and work to maximize the benefits directed to impacted 
communities. In other words, 40 percent is a floor, not a 
ceiling. The Oversight Committee has a key role to play in this 
and stands ready to work with the White House and community 
partners to ensure Justice40 is fully implemented in the Build 
Back Better Climate Plan.
    As chairwoman, I will be focusing on several key 
priorities. First, Justice40 cannot be isolated in just one 
agency. We need a whole-of-government approach like the one put 
forward by President Biden and the White House Environmental 
Justice Advisory Council. Second, this approach must be guided 
by frontline voices. Innovative efforts in New York, 
California, and Delaware, South Carolina, and elsewhere provide 
a roadmap of what is possible. Third, we need robust Federal 
data about the full extent or impact of climate change and 
pollution on our communities. Many of our committee members are 
leading the way with legislation to create cutting-edge 
environmental justice and data collection tools to incorporate 
climate risk and frontline impact into agency planning and 
congressional projections and to foster good paying jobs. Let 
me also note that environmental justice should not be a 
partisan issue. Americans in both red and blue states and in 
both urban and rural communities are struggling with the rising 
impacts of climate change and pollution, and I am hopeful that 
my colleagues on both sides of the aisle will join together to 
address this crisis together.
    I want to thank the remarkable panel for being here today, 
and I now recognize the distinguished ranking member, Mr. 
Comer, for an opening statement.
    Mr. Comer. Thank you, Chairwoman Maloney. I want to thank 
the witnesses for their willingness to appear before the 
committee today. We are here today for a hearing on the Biden 
Administration's American Jobs Plan that calls for billions of 
dollars in new spending on climate change. The premise of 
today's hearing is to discuss the Justice40 Initiative, which 
directs 40 percent of the benefits and climate and clean 
infrastructure investments to economically disadvantaged 
communities. Ironically, there is no witness from the Biden 
Administration here to answer our questions. It is no wonder 
the Lugar Center recently gave Democrats on this committee an F 
in congressional oversight of the Biden Administration.
    We have repeatedly asked Chairwoman Maloney to hold 
hearings on waste, fraud, abuse, and mismanagement, but, 
unfortunately, she has refused. Most recently we asked the 
chairwoman to hold a hearing on the backlog of veterans' 
records at the National Archives and Records Administration. 
Some veterans are sadly waiting almost a year to receive their 
records so they can receive their benefits. In fact, we just 
learned this week that the Agency is still not returning to 
work at full capacity, so records will continue to be delayed. 
This is unacceptable--unacceptable treatment for those that 
served our country and a worthy hearing topic for this 
committee.
    Instead, we have had hearings on increasing work perks for 
Federal employees and proposals to spend billions of dollars on 
radical environmental policies that will increase energy prices 
for Americans. Meanwhile, inflation and gas prices are surging. 
Americans all over the country are dealing with the realities 
of the Biden Administration's policies. According to a recently 
released report by AAA, the average price of gas nationwide has 
climbed to $3.13, a high for the year, and up 40 percent since 
January 1. The increase in gas prices alone is costing American 
consumers billions of dollars. This is not the American energy 
dominance that we had seen over the prior four years, and it's 
just one of the many factors driving up consumer prices, also 
referred to as ``inflation,'' in this flailing Biden economy.
    The Biden Administration's out-of-control spending is 
causing inflation to skyrocket. Americans are now paying more 
for goods and services while taking home less money in their 
paychecks. Inflation has risen every single month President 
Biden has been in office. The price of milk and fruit are up, 
rental car prices have increased 87 percent, if you can even 
get a rental car, and washing machines are up nearly 30 
percent. Instead of examining ways to strengthen our economy, 
stop the Biden border crisis, or fix the backlog affecting our 
veterans getting benefits, Democrats want to continue spending 
billions of dollars on government projects and progressive pipe 
dreams, like the American Jobs Plan.
    The Committee on Oversight and Reform used to question how 
the government spends money, and now we are here having 
hearings to try to find new ways to spend taxpayer money, often 
with no strings attached. If Democrats want to address the 
needs of economically disadvantaged communities, they should be 
looking for solutions to encourage investment from the private 
sector instead of massive tax increases that only have 
negligible climate impact.
    Over the past year, the world's economy was essentially 
shut down due to the COVID-19 pandemic. However, even with this 
halt in activity, a recent National Oceanic and Atmospheric 
Administration report from last month shows that it barely made 
an impact on the amount of carbon dioxide in the atmosphere. If 
the most unparalleled shutdown in human activity that closed 
schools and businesses around the world barely impacted carbon 
dioxide levels, it raises serious questions about whether 
spending massive amounts of U.S. taxpayer money will actually 
affect the climate, especially while countries like China and 
India continue to pollute at record levels.
    I fear that a premature move away from fossil fuels, 
particularly from poorer areas, means that they will continue 
to have little access to the type of affordable, reliable 
energy that enables economic growth and allows for the 
provision of clean water and sanitation, widespread 
vaccination, and preventative child health services. As I have 
said before, coal mining is a way of life in many parts of 
America, including my district. Kentucky coal remains an 
important component of the Commonwealth's economy and America's 
energy portfolio. Until we have replacements for those jobs and 
that energy, we cannot in good conscience move forward with 
these radical policies. I am eager to hear from Mr. Shay 
Hawkins today to learn more about the work he is doing to help 
promote opportunity fund investments in economically troubled 
rural and urban communities.
    Thank you, Madam Chairwoman, and, again, I thank the 
witnesses for being here today. I yield back.
    Chairwoman Maloney. The gentleman yields back. I recognize 
myself to briefly respond to the claims from my Republican 
colleague and good friend, that we should be holding a hearing 
on something other than environmental justice. Our Nation is in 
a climate emergency. There is no doubt about it. Just this 
summer, we have seen shocking floods in some parts of our 
country, severe drought and a wildfire in Oregon that is so 
huge and so hot, that according to experts, it is changing the 
weather. It was reported in New York that we could see the 
environmental changes in New York, they're saying that the 
wildfire is the largest and damaging--most damaging we have 
seen, and the impacts of this extreme weather often falls the 
hardest on the poorest communities, many of which are already 
facing severe health impacts from industrial waste, pollution.
    This issue demands action. What's more important than our 
planet's health, than our children's health? Republicans may 
prefer to change the subject, but I am proud that the Oversight 
Committee is seeking real, urgent solutions to this climate 
emergency we're confronting in our Nation.
    My good friend mentioned the veterans' records. I ask 
unanimous consent to place in the record a letter we just sent 
out initiating an investigation and calling for documents and 
oversight of the Veterans Administration.
    Chairwoman Maloney. The Subcommittee on Coronavirus has 
issued many reports on waste, fraud, and abuse and our actions 
in that area, and I ask unanimous consent to place into the 
record that also.
    Chairwoman Maloney. He mentioned the economy. According to 
the Kiplinger Report, the GDP actually is the highest that I 
have ever seen since I have been in office, seven percent GDP, 
Gross National Product, and we are employing more people every 
month, every day, more people are employed. And, thanks to the 
American Rescue Plan that was put forward by the Democrats 
without one single Republican vote, hundreds of billions of 
dollars have flown out of Washington into the pockets of 
individual citizens with unemployment, direct payments, all 
kinds of help for them, and also to our cities and our 
counties, our tribes, our territories, our states directly to 
help them survive and build back after the worst health crisis 
in my life, probably in the period of the country. The 
Coronavirus-19 claimed many, many lives, and we were not 
prepared, because we had cut services in the CDC and all of our 
services to get ready for crisises.
    I applaud President Biden for centralizing the response of 
vaccines, getting them out quickly, demanding a 70-percent 
success rate, which we're almost at, we are at in my district 
because we all worked hard to get everybody vaccinated. Twenty 
billion dollars was put into the American Rescue Plan to get 
vaccines out across the country to everyone who needs it. And 
we now are trying to get those who do not want to get 
vaccinated, vaccinated, because it is for their good health and 
the health of the Nation. But I don't want to be sidetracked 
into other items. The purpose of this hearing is the climate 
emergency. It is the climate crisis that we're confronting and 
what is this Nation going to do about it.
    I would now like to call on and recognize the chairman--the 
distinguished chairman of the Environment Subcommittee, Mr. Ro 
Khanna, for his opening statement. Mr. Ro Khanna, you are now 
recognized, and then we will hear from our very distinguished 
group of panelists that are here today. I am just very thrilled 
about what they have been able to accomplish on their own in 
other areas in our country and hope we can do the same on a 
national level. Mr. Ro Khanna, you are now recognized.
    Mr. Khanna. Thank you, Madam Chair, and thank you for your 
incredible leadership with the climate crisis. There is no one 
in Congress who cares more about the climate crisis than you in 
taking bold action, and it's a sign of your commitment to the 
issue that you are really elevating it in your role as chair. 
And I also want to thank Russ and the Oversight staff for their 
commitment to this issue. Thank you to the panelists.
    Let me start by praising President Biden for his vision 
that the solution to the climate crisis means jobs and economic 
growth in communities left behind. We have all seen the 
economic disparity. In my district in Silicon Valley, $11 
trillion of market cap. When you go to rural communities, 
storefronts are vacant. You see people having to leave. You see 
churches dwindling. You go to black and brown communities, and 
a lot of the same challenges of economic de-industrialization.
    President Biden wants to close that gap. He wants to say 
that it is not fair that people in rural America may have 
flooding or breathe air that is not as clean, or people in 
black and brown communities may live in a different and 
substandard way than the rest of us. He believes that they all 
should have jobs of the future, the manufacturing jobs, the 
small business jobs, that those shouldn't just be isolated on 
the coast. They need to go into the heartland. They need to go 
into left-behind communities. There needs to be racial, gender 
equity, geographic equity in the job creation of the future.
    That is what Justice40 is about. It's not just about 
tackling the environmental crisis that is so severe. It's not 
just about making sure kids don't grow up with asthma, that 
people drink water that isn't poisoned with lead, that people 
don't have to deal with flooding. It's about making sure that 
we finally have new manufacturing jobs in communities that have 
been left behind, new economic wealth generation in communities 
that have been left behind, the future in communities that are 
so desperate for new jobs and new opportunity, and that is what 
this President does. He cares about those left-behind 
communities. That's the whole vision behind a lot of his 
economic policies.
    The distinguished ranking chair said China, and I share the 
view that we need to win on China, but China is actually 
marching ahead on a lot of these technologies, and I want to 
make sure they don't win, that we do. China just announced a 
week ago that they are going to have an emissions system where 
they are going to actually have trading in carbon emissions to 
try to get to carbon neutrality by 2060, and they're leading--
right now they are beating us, unfortunately, in electric 
vehicles. They are putting more money in solar. They are 
putting more money in wind. America needs to lead the 21st 
century, not China. I don't want the world saying China is 
outdoing us in fighting the climate crisis. I don't want the 
jobs going to China. I would rather the jobs go to West 
Virginia or in the middle of the country or down South. I don't 
want them going to China. That is what the President is saying. 
He is saying the Justice40 Initiative is making sure America 
wins, not China and not other countries, when it comes to 
tackling the climate crisis.
    So, I applaud the President's leadership. I'm looking 
forward to hearing from our distinguished panel. And, 
Chairwoman Maloney, thank you again for elevating the 
environment and climate crisis in your leadership.
    Chairwoman Maloney. The gentleman yields back. Now I would 
like to introduce the witnesses. Our first witness today is 
Richard Moore, who is the co-coordinator of the Los Jardines 
Institute, the national coordinator of the Environmental 
Justice Health Alliance, and the co-chair of the White House 
Environmental Justice Advisory Council. Then we will hear from 
Nicole Lee Ndumele, who is the vice president for racial equity 
and justice at the Center for American Progress. Next, we will 
hear from Harold Mitchell, who is the founder and executive 
director of the ReGenesis Community Development Corporation, 
and is a member of the White House Environmental Justice 
Advisory Council from South Carolina. Next, we will hear from 
Raya Salter, who is a member of the New York State Climate 
Action Council and has led some very significant advances in 
legislation in New York. Next, we will hear from Michael Leon 
Guerrero, who is executive director of the Labor Network for 
Sustainability. Finally, we will hear from Shay Hawkins, who is 
the chairman and CEO of the Opportunity Funds Association.
    The witnesses will be unmuted so we can swear them in. 
Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you.
    Without objection, your written statement will be made part 
of the record.
    With that, Mr. Moore, you are now recognized for your 
testimony. Mr. Moore?

   STATEMENT OF RICHARD MOORE, CO-COORDINATOR, LOS JARDINES 
   INSTITUTE, NATIONAL CO-COORDINATOR, ENVIRONMENTAL JUSTICE 
   HEALTH ALLIANCE; AND CO-CHAIR, WHITE HOUSE ENVIRONMENTAL 
                    JUSTICE ADVISORY COUNCIL

    Mr. Moore. Good morning, Madam Chairwoman. Thank you, Madam 
Maloney, Ranking Member Comer, and the rest of the members of 
the committee for this invitation to give testimony before you 
today on the Justice40 Initiative and Build Back Better with 
environmental justice. I do have to say to the committee and to 
the ranking member that we are not a special interest group. We 
are those from grassroots communities that live around, and in, 
and surrounded by many of the facilities that have been spoken 
to already. I offer this testimony on behalf of Los Jardines 
Institute, the Gardens Institute, in Albuquerque, New Mexico, 
and the Environmental Justice Health Alliance.
    More than ever before, the Biden Administration has put 
environmental justice on the national agenda. He has done so 
through executive orders and with his Justice40 Initiative, and 
I will say ``our Justice40 Initiative,'' which directs 40 
percent of the benefits of sustainable economy to marginalized 
communities, such as the ones we work with in Albuquerque and 
the communities that we live in. In the South Valley of 
Albuquerque, we have been fighting against community impact 
burdens of pollution and social inequity for decades.
    South Valley is home to a thriving Hispanic and immigrant 
community, rooted in rich culture, traditions, and agricultural 
history. However, our community has been subjected to 
environmental racism that has left a legacy of contaminated 
groundwater through Superfund sites and high levels of toxic 
air pollution. Our drinking water has been consistently plagued 
by radon and arsenic contamination. We are surrounded by 
railyards and industrial facilities, and home to the city's 
only landfill contributing to high levels of toxic pollution. 
With unsafe water, unclean air, and inadequate access to 
health, the community deals with compounding health risks, 
which we only saw exacerbated through the COVID-19 pandemic. 
Unfortunately, the South Valley is not unique. For many years 
communities of color, low-income communities, tribal 
communities, and rural communities across the United States 
have experienced disproportionate harm from environmental 
contaminants and now face disproportionate risk for--from 
climate change.
    Several points I want to share. Our nation's environmental 
laws are sometimes inconsistently applied and often are more 
slowly enforced in our communities. Historically, the Federal 
Government, through public policies such as residential 
segregation, has perpetrated, institutionalized, or defended 
injustices that have resulted in environmental injustice and 
communities being exposed to hazardous substances. In order to 
address these harms arising from environmental racism and to 
build a better future, Congress must ensure that at least 40 
percent of the Federal investments, including in Federal 
legislation, go to programs that deliver real benefits to low-
income communities and communities of color most in need.
    New programs should cleanup legacy pollution and create 
greater access to renewable energy, energy efficiency, clean 
transportation, affordable housing, flood and heat protections, 
and other projects that benefit environmental justice 
communities. The Federal Government also should find creative 
pilot projects that support jobs and job training in 
environmentally sustainable industries. Furthermore, Congress 
should not add cumulative pollution, which will only reinforce 
environmental injustices and violate the spirit of Justice40. 
Finally, state governments shouldn't be allowed to divert 
Federal funds simply to fill state budget gaps.
    We feel strongly that the White House Council on 
Environmental Quality, which has interagency coordinating 
responsibility, should be adequately resourced and charged with 
lead responsibility for the oversight of Justice40 
implementation. Also, CEQ and the White House Office of 
Management and Budget should receive resources needed to 
monitor and clearly track the gaps in Federal investments that 
must be filled to meet Justice40 goals. Last, I urge respected 
members of this committee to look toward building comprehensive 
legislation, such as the Environmental Justice for All Act, 
that deals with many of the challenges environmental justice 
communities face.
    Thank you very much, Madam Chair, and thank you, Committee 
Members, for allowing me to give this testimony.
    Chairwoman Maloney. Well, I want to thank you for your very 
moving testimony. And to really underscore, we have two 
panelists that have worked very closely with President Biden on 
formulating this policy that we are looking at today, which 
literally came from the community up, so we do have two people 
from the Administration here. Their ideas became the Justice40 
Initiative.
    Our next panelist will be Ms. Ndumele. You are now 
recognized for your testimony.

STATEMENT OF NICOLE LEE NDUMELE, VICE PRESIDENT, RACIAL EQUITY 
           AND JUSTICE, CENTER FOR AMERICAN PROGRESS

    Ms. Ndumele. Thank you very much. Good morning, Chairwoman 
Maloney, Ranking Member Comer, and members of the committee. I 
am very pleased to discuss President Biden's Justice40 
Initiative. My name is Nicole Lee Ndumele. I am the Vice 
President for Racial Equity and Justice at the Center for 
American Progress. CAP is an independent, nonpartisan think 
tank committed to improving the lives of all Americans through 
bold, progressive ideas, as well as strong leadership and 
concerted action.
    Justice40 is a historic step in the fight for 
environmental, economic, and racial justice. Longstanding 
discrimination in environmental, housing, infrastructure, and 
economic policies have forced too many black, brown, and 
indigenous communities to endure high levels of pollution. It 
has limited economic mobility within these communities and 
stymied equitable and climate resilient housing and community 
development opportunities. For many black, brown, and 
indigenous communities, exposure to dangerous toxic pollutants 
is a hazard of daily life. The cumulative impact of exposure to 
high concentrations of pollution leads to higher rates of 
cancer, asthma, and other serious health problems, which 
undermine these communities' ability to participate equally in 
the economy and live safe, healthy, and prosperous lives.
    Systemic and institutional racism have facilitated and 
exacerbated the concentration of dangerous pollutants in black, 
brown, and indigenous communities. Structural inequalities have 
led to high levels of racial segregation, significant 
environmental and economic injustices, and a persistent and 
widening racial wealth gap. This racial wealth gap hinders 
black, brown, and indigenous people from accumulating wealth, 
and locks them into disadvantaged neighborhoods where they 
experience disproportionate environmental harms. We now have a 
critical opportunity to turn the tide, not only against climate 
change, but also environmental, economic, and racial injustice. 
Tireless environmental and racial justice advocates, some of 
whom are on this panel today, have been on the front lines of 
the fight for a pollution-free environment for decades.
    President Biden's (inaudible) commitment to deliver 40 
percent of the climate clean energy and infrastructure 
investment benefits to disadvantaged communities has the 
potential to direct billions of dollars to the communities most 
in need, communities who are long overdue for investments in 
pollution-free energy and transportation, work force and 
community development, affordable and energy efficient housing, 
and clean water. Overall, these funds have the potential to 
fight climate change, address public health risks, reconnect 
neighborhoods that were deliberately segregated, and create 
good jobs.
    Congress and the Biden Administration must ensure Justice40 
implementation delivers on its promise and delivers tangible 
benefits to disadvantaged communities, because all too often, 
Federal funds intended to benefit disadvantaged communities 
either fail to reach these communities, or inadvertently cause 
harm. There are many hurdles for disadvantaged communities 
trying to receive grants and Federal funds, such as weak 
program criteria, lack of protections against community 
displacement, cumbersome application and reporting 
requirements, technical assistance gaps in communities, and 
capacity restraints at Federal agencies. Just yesterday, the 
White House released interim guidance for implementing the 
Justice40 Initiative, which includes many of the 
recommendations made by the Equitable and Just National Climate 
Platform, the White House Environmental Justice Advocacy 
Council, and CAP to support transparency and accountability and 
maximize the benefits delivered to disadvantaged communities.
    Congress, and this committee especially, has an important 
role to play to ensure that Justice40 delivers real and 
measurable benefits to disadvantaged communities to right the 
wrongs of environmental and systemic racism. This committee can 
require that the climate and economic justice screening tool to 
identify disadvantaged communities is designed well and 
developed in collaboration with environmental justice advocates 
and academics. It can ensure that the environmental justice 
scorecard, created to track agency progress, accurately 
measures the Administration's performance. It can make sure 
that the Administration takes into account recommendations and 
lessons learned from State Justice40 implementation and 
oversight in places like South Carolina, led by fellow 
panelist, Harold Mitchell, and others in other states. The 
Administration can also take the time--Congress can also make 
sure that the Administration takes the time necessary to 
conduct an inclusive and deliberative implementation project--
process.
    This committee must use its oversight authority to make 
certain that equity in environmental, racial, and economic 
justice remain the core goals of Justice40 implementation and 
protect the fundamental rights of all communities to breathe 
clean air, drink clean water, and have access to economic 
opportunities and safe and affordable housing so they can live 
healthy and prosperous lives. Thank you very much.
    Chairwoman Maloney. Thank you. Mr. Mitchell, you are now 
recognized for your testimony.

 STATEMENT OF HAROLD MITCHELL, FOUNDER AND EXECUTIVE DIRECTOR, 
REGENESIS COMMUNITY DEVELOPMENT CORPORATION; AND MEMBER, WHITE 
          HOUSE ENVIRONMENTAL JUSTICE ADVISORY COUNCIL

    Mr. Mitchell. Thank you. Good morning, Chairwoman Maloney, 
Ranking Member Comer, and members of this distinguished 
committee. Thank you for holding this hearing today on this 
very important topic about the opportunity and the necessity to 
put environmental justice at the heart of a true economic 
recovery for our Nation. I am Harold Mitchell, Jr., the founder 
and executive director of the ReGenesis Community Development 
Corporation based in Spartanburg, South Carolina, and a former 
state legislator. I am pleased to appear before you today to 
discuss the critical investments in environmental justice and 
equitable economic opportunity that President Biden has 
proposed, and how Congress must seize this moment to advance 
legislation providing solutions that meet these challenges 
facing our communities, because our communities are suffering.
    They suffer disproportionately and systematically from the 
worst toxic, hazardous air pollution, so much of which is 
associated with burning of fossil fuels. We are also suffering 
from economic disinvestment, lack of opportunity, and from 
climate change. But first, let me tell you a little bit more 
about the story of ReGenesis. I am here today to show you what 
is possible when we work together.
    From the first time when I was growing up in Spartanburg, 
people were always getting sick and dying. I had a fertilizer 
plant located in front of the house and a landfill in back. We 
had two EPA-designated Superfund sites and four brownfield 
sites polluting our community and poisoning our people, and 
preventing the types of economic opportunity that would allow 
our community to thrive. In 1998, I created ReGenesis. I began 
working with other community residents to identify solutions 
and build a healthier community. We had philanthropic partners 
and Federal partners, too. We took a $20,000 EPA small grant 
and leveraged that into $300 hundred million. We worked with 
the Department of Energy on planning charettes; Health and 
Human Services on establishing our first federally qualified 
health center that expanded into seven sites and two pharmacies 
in three different counties, one which is with Congressman 
Ralph Norman, which he was able to visit and see how that 
impact has turned around the behavioral health and the issues 
they are facing in his community; the Department of Labor and 
Department of Commerce on investing in jobs and economic 
opportunities, like a new grocery store complex in a once food 
desert. A $7 million green recreational facility was also 
built. We built energy efficient affordable housing, and solar 
that was attached too, with the investment from the Department 
of Housing and Urban Development and a $20 million HOPE VI 
grant.
    The Department of Justice's Weed and Seed reduced crime by 
92 percent in that community, and EPA helped us with the 
cleanup of the legacy of toxic pollution, from where the 
brownfields and Superfund sites are ready for reuse as 
designated opportunity zones. And as an example for one of 
those Superfund sites that was an opportunity zone designation, 
now we are looking to use that landfill, converting it to a 
community solar project with Solvay Chemicals and Duke Energy. 
All of these solutions were built from the ground up by our 
community, but none of this would have happened without the 
willing partner in the Federal Government. And if that can be 
done in a red state like Spartanburg, South Carolina, it could 
be done anywhere in the country.
    Now, as you turn to advancing legislation that meets or 
exceeds the commitments by President Biden in his American Jobs 
Plan, I encourage you, be bold and deliver on environmental 
justice and equitable economic opportunity. President Biden's 
Justice40 Initiative targeting 40 percent of the benefits of 
climate and clean energy infrastructure investments to 
disadvantaged communities should permeate every Federal 
investment and, in some areas, like Superfunds, should exceed 
the 40 percent. Our communities must be ready to receive these 
investments. That is why this year, I have worked with state 
Representative Gilda Cobb-Hunter to advance a bill that's in 
the South Carolina legislature to establish the State's 
Justice40 oversight committee. This is to help identify and 
ensure that disadvantaged communities derive the full benefit 
of these Federal investments. Other states are using the South 
Carolina legislation as a model. The Delaware legislature 
recently passed a joint resolution establishing a Justice40 
oversight committee. We are now working with other states, 
Governors, and legislatures, too.
    You all in Congress have a historic opportunity this year 
to pass legislation that confronts systemic environmental 
injustice, and helps avoid the worst impacts of climate change, 
and that builds a more just, inclusive, and thriving clean 
energy. I hope that you will seize this moment. I appreciate 
the opportunity to testify before you today, and I, with 
others, stand ready to work with you to build a more just and 
equitable future for all Americans.
    Chairwoman Maloney. Thank you very much. Ms. Salter, you 
are now recognized for your testimony.

   STATEMENT OF RAYA SALTER, ESQUIRE, MEMBER, NEW YORK STATE 
                     CLIMATE ACTION COUNCIL

    Ms. Salter. Good morning, Chairwoman Maloney, Ranking 
Member Comer, and distinguished members. Thank you for this 
opportunity to testify today. My name is Raya Salter. I am an 
energy attorney based in New Rochelle, New York, Lenape land. I 
am a member of the New York State Climate Action Council, which 
is developing the scoping plan for New York to achieve its 
statewide greenhouse gas emissions goals. I am also the policy 
organizer for New York Renews, a coalition of over 280 
environmental justice, labor, and community groups, and the 
force behind the 2019 New York Climate Leadership and Community 
Protection Act, the Nation's most progressive climate law, and 
we are very proud to say the state precedent and example for 
the Justice40. Since the passage of the law, I have been 
working with the State Climate Action Council and New York 
Renews to ensure the implementation of New York's Justice40.
    I started my legal career as an energy associate with the 
Law Firm of Dewey & LeBoeuf in New York City. In prior roles, I 
was a regulatory attorney with the Environmental Defense Fund, 
and a senior attorney with the Natural Resources Defense 
Council. I have worked with activists, community stakeholders, 
utilities, and other thought leaders from New York to Hawaii to 
promote the just integration of clean and renewable energy onto 
electric grids. I am an adjunct professor of law at Cardozo Law 
School, and my book, Energy Justice, was published in 2018. 
Before becoming a lawyer, I worked for community-based 
organizations in both Yonkers and Brooklyn, New York. I am a 
deep believer in popular and public education on these issues, 
so I invite all of you to consider me your climate auntie, and 
that is actually where you can find me on both IG and TikTok.
    First, I want to thank you again for this important 
investigation into the need for the American Jobs Plan to 
comprehensively address climate and environmental justice. This 
means that as we build energy and related infrastructure at the 
scale needed to address the climate crisis, we must also change 
the trajectory of harm that many infrastructure projects have 
historically caused communities of color. It's important to 
know that in New York law, the 40 percent investment mandate 
sits within a broader justice framework that is critical for 
its success. So, yes, New York law mandates that a goal of 40 
percent of the benefits must be realized by disadvantaged 
communities, and New York law is very broad in what those 
investments mean: all energy and energy efficiency investments. 
Please make sure the American Jobs Plan is broad, too.
    But New York law goes further. It provides significant do 
no harm protections in statute for frontline communities as 
infrastructure is permitted, planned for, and built, and 
requires, among other things, that all state agencies in their 
permit approvals and licenses must not disproportionately harm 
frontline communities. Projects requiring major permits must 
demonstrate that future climate risk has been considered, 
including impacts on disadvantaged communities, and very 
important, early action must be taken to prioritize reductions 
of co-pollutants and greenhouse gases in disadvantaged 
communities. Make sure to require co-pollutant tracking and 
accounting and demand cumulative impact analysis. Demand early 
action. If you fail to do this, the projects will rush forth 
with no way to understand if they are achieving the Justice40 
goals. These provisions in New York provide guardrails for 
environmental justice communities, and the American Jobs Plan 
should also incorporate these types of express controls into 
agency decision-making.
    In addition, I advise that you to make the language 
explicit now and get ready to build in oversight later, or, I 
emphasize again, when the money flows, the community-led 
coffers will remain dry. So first, measure benefits to 
disadvantaged communities in dollars spent. When the standard 
has been used in New York, we have seen success. Include funded 
mechanisms for procedural and participatory justice designed to 
include frontline communities in all aspects of infrastructure 
investment decisions. Fund and develop community-based 
infrastructure for community-controlled investments. Make sure 
the money goes to community-led projects. Build new financing 
structures to ensure that the money goes where it is supposed 
to go. I also fully support the WHEJAC recommendations for 
Justice40, which include important protocols with regard to 
indigenous nations and communities, equity mapping, and other 
matters.
    Thank you again so much for this opportunity to testify 
before you. It has been an honor.
    Chairwoman Maloney. Thank you. Mr. Guerrero, you are now 
recognized for your testimony.

 STATEMENT OF MICHAEL LEON GUERRERO, EXECUTIVE DIRECTOR, LABOR 
                   NETWORK FOR SUSTAINABILITY

    Mr. Guerrero. Chairwoman Maloney, Ranking Member Comer, 
members of the committee, thank you so much for the opportunity 
to testify today. My name is Michael Leon Guerrero. I am the 
executive director of the Labor Network for Sustainability. We 
are a national network of worker, climate, and environmental 
justice organizations working for an ecologically sustainable 
and economically just future. We affirm that environmental 
justice is central to the American Jobs Plan, as are the voices 
of workers and communities in the process. My remarks will be 
brief, but I refer you to my written comments for greater 
detail.
    These are troubling and turbulent times that require bold 
and creative action. They compel us to ensure that the goals of 
creating good jobs and protecting our environment are not 
incompatible. We commend President Biden for centering job 
creation, the rights of workers, and environmental justice in 
his climate protection strategy. Earlier this year, LNS 
published a report, ``Workers and Communities in Transition,'' 
based on a national year-long Just Transition Listening 
Project. These were in-depth interviews with people across the 
country who experienced major job loss in their communities due 
to factory closures, the pandemic, and other causes. Many 
interviewees described the economic devastation and personal 
trauma in the wake of plant closures and support systems that 
were wholly inadequate. Without healthcare, insufficient 
unemployment benefits, and a lack of good new jobs, people just 
couldn't make ends meet. Many lost loved ones to suicide, 
alcoholism, or drug addiction.
    The principal finding was that transitions are inevitable 
and constantly happening across the economy. Workers in fossil 
fuel industries are already losing their jobs, not due to 
climate change policies, but to market forces or the pandemic. 
As a country, we are just not well prepared for these changes, 
but the Listening Project also tells a story of innovative 
community and labor-led solutions to navigate these 
transitions. A set of recommendations is included in the 
Listening Project report, and we offer four overarching 
recommendations that are described in detail in my written 
testimony.
    First, we must create family sustaining jobs that address 
equity and communities in need. The full range of programs 
promised by the American Jobs Plan and American Families Plan 
would be a vital first step in creating millions of jobs in 
repairing and upgrading our Nation's infrastructure. For 
instance, electrifying transportation and expanding our public 
transit systems can create thousands of good jobs in 
manufacturing, operations, and maintenance, and address 
environmental justice for communities overburdened by pollution 
and underserved by transit options. The Invest Act and the 
Stronger Communities Through Better Transit Act offer vital 
measures in this direction. The Orphaned Wells Cleanup and Jobs 
Act of 2021 can help to protect and restore our environment. 
With the addition of strong labor standards, it can create 
thousands of long-term, good-paying jobs in urban and rural 
communities.
    Second, job creation must be paired with high road labor 
standards to help ensure that workers who experience job loss 
in the new economy can transition to a good job. These include 
prevailing wages and benefits, targeted and local hiring for 
underserved communities and displaced fossil fuel workers, 
apprenticeship and pre-apprenticeship hiring, project labor and 
community work force agreements, and organizing rights, 
including passing the Protecting the Right to Organize Act.
    Third, we must expand and strengthen social safety nets. 
The Federal Government should dedicate significant funding to 
support transition efforts. You can do this by establishing a 
national just transition or worker and community protection 
fund; providing financial support to communities that lose tax 
revenue as a result of facility closures; increasing and 
extending benefits, like unemployment, healthcare, and 
childcare; expanding the Trade Adjustment Assistance Program to 
apply to other major economic trends, like the transition to a 
clean energy economy; and fully funding state rapid response 
programs that provide critical peer-to-peer support for workers 
to access financial resources, social services, and more.
    Our fourth recommendation is to support active community 
and worker engagement. The state of Colorado's Just Transition 
Program, for instance, was crafted by a broad-based coalition 
of labor, environmental justice, and other organizations. It 
establishes a just transition fund that invests initially in 
coal workers and communities by providing wage replacement for 
workers who transition to lower-paying jobs, investing in 
economic development, and other support. Colorado's program is 
a fully bipartisan effort supported by state legislators across 
the political spectrum. However, without the support of the 
Federal Government, Colorado and other states will struggle to 
fully implement groundbreaking programs like this.
    Record heat and intense wildfires in the U.S. and raging 
floods in Europe are reminding us that we are way behind in a 
transition from fossil fuels to a clean energy future. Action 
must be swift, but thoughtful, with a managed transition that 
is just, and will not treat workers and communities as stranded 
assets. Waiting, though, is no longer an option. We strongly 
urge you to take action now to pass the strongest version of 
the American Jobs Plan possible.
    Thank you so much for your consideration and attention to 
these issues.
    Chairwoman Maloney. Thank you very much. And, Mr. Hawkins, 
you are now recognized for your testimony.

STATEMENT OF SHAY HAWKINS, CHAIRMAN AND CEO, OPPORTUNITY FUNDS 
                          ASSOCIATION

    Mr. Hawkins. Well, thank you, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee. It is a pleasure to 
be with you today. This will be my 5th time testifying before 
Congress, but my first time testifying before the full 
Oversight and Reform Committee, so I thank you so much for 
having me.
    I am the co-founder and president of the Opportunity Funds 
Association, and this morning I would like to discuss how 
opportunity zones are targeting private investment in areas of 
the country that have been de-industrialized and historically 
disadvantaged, and how opportunity zones can be expanded in 
ways to help provide cleaner, more affordable, more secure 
energy. Further, I would like to emphasize the importance of 
pursuing an infrastructure program that makes significant 
investments in traditional infrastructure without crippling tax 
increases on small businesses and workers that would undermine 
the historic progress made prior to the pandemic in minimizing 
minority unemployment and raising minority incomes.
    So, prior to founding the Opportunity Fund Association, I 
served as majority staff director for the Senate Finance 
Subcommittee on Energy, Natural Resources, and Infrastructure, 
and as tax counsel to Senator Tim Scott, where I helped 
champion the Investing in Opportunity Act legislation authored 
by Senators Tim Scott and Cory Booker from New Jersey. That 
ultimately became opportunity zones. IRS data shows that $24 
billion has been raised for investment so far, with billions of 
that having actually been raised during the pandemic. And an 
August report from the Council of Economic Advisers estimates 
that opportunity zones will lift 1 million Americans from 
poverty and reduce poverty in designated opportunity zones by 
11 percent.
    We are also seeing operating businesses taking root in 
opportunity zones in critical energy--critical industries, such 
as clean energy. There are 475 solar energy installations 
producing more than 1 megawatt of activity in opportunity 
zones, as well as about 127 wind farms and 15 battery plants of 
at least the same capacity. So, more specifically, Hoosier 
Solar Holdings is embarking on a large-scale solar build-out 
project in Indiana using opportunity zone financing. They are 
operating under $20 million in opportunity zone capital, and 
have plans for six utility-scale solar projects across four 
counties.
    In a lot of cases, the greatest and greenest building is 
the one that is already built. So, America's legacy communities 
are full of vibrant, historic buildings that fell into sort of 
severe disrepair when jobs and industry left the urban core. 
So, in Philadelphia, for instance, real estate developers, 
Sterling Wilson and Southwood Partners, have partnered with PNC 
Bank to redevelop a defunct creamery, Harbisons Dairy. You have 
seen this kind of like 10,000-gallon milk bottle that is kind 
of historic landmark. So, they redeveloped this to create 50 
units of work force housing. They built a new headquarters for 
Pop! Promos, one of the city's fastest-growing companies. And 
this team's next collaboration is going to be to develop an 
affordable food manufacturing space for minority-owned 
businesses there.
    So, Congress can really help by, first of all, pursuing an 
infrastructure plan without tax increases. So, current 
inflation rates are above 12 percent. We have seen inflation 
increase in every month of this year. And so, Congress imposing 
additional taxes on small business and workers will 
essentially, you know, double the existing pain that we are 
seeing from inflation, so that is going to be critical. And I 
look forward to discussing other ways that Congress and this 
committee can get more capital into minority communities and 
distressed communities, and secure cleaner, more affordable 
energy for all Americans. Thank you so much.
    Chairwoman Maloney. Thank you so much, and I thank all of 
the panelists. I now recognize myself for questions.
    We are here today because the status quo is not working. In 
1994, President Clinton issued an executive order directing 
each Federal agency to make environmental justice part of their 
mission. Seven years later, a wave of 10 dirty power plants, 
nearly all of them in communities already facing structural 
inequality, went up and in around my district in New York City. 
They were so dirty and dangerous to public health that 
residents were promised they would close in just three years, 
but 20 years later, they are still burning the dirtiest oil and 
gas in some of our densest neighborhoods.
    Two plants in Long Island City pollute alongside the 
Ravenswood Generation Station, one of the largest power plants 
in the country, right next to Queensbridge Houses, the largest 
public housing development on the continent. Four plants in the 
Port Morris section of the Bronx contribute to some of the 
worst air quality in the country, with tens of thousands of 
truck trips spewing smog along the streets. It is so bad that 
areas, represented by myself and Congresswoman Ocasio-Cortez, 
are called ``Asthma Alley.'' In one Manhattan neighborhood I 
represent, there are tens of thousands of people, including 
some in public housing, who live within a few blocks of a power 
plant, and they are planning to build two more polluting 
facilities. So, my first question is to Mrs. Salter. How would 
implementing Justice40 at the Federal level help address these 
environmental harms?
    Ms. Salter. Thank you, Chairman Maloney, for asking that 
critical question, and you are exactly right. We know that PM 
2.5 in New York City causes more than 3,000 deaths each year, 
2,000 hospital admissions, 6,000 emergency department visits 
for asthma, and a lot of it is due exactly to those peaker 
plants that you are talking about. And by the way, we spend 
$4.5 billion on capacity payments to keep those aging, dirty 
peakers open.
    And so, what can Justice40 help do? We need to work to 
close those peakers and replace them with local, community-led, 
renewable solutions, like what We Act for Environmental Justice 
can do with energy efficiency and solar on buildings, like what 
we can do by closing Rikers Island and turning it into a hub 
for clean energy, like what the Point CDC is doing with green 
infrastructure. So, there is a tremendous amount of good that 
can be done by the Justice40.
    Chairwoman Maloney. Well, it is clear we need a plan, and 
we need action. Mr. Moore, in your personal assessment, would 
you say that all Federal agencies have made environmental 
justice a top focus since 1994, and is it a focus for all 
agencies today? And what are some of the most immediate steps 
we can take to make sure that we close these polluting sites 
that are taking years off our constituents' lives? Mr. Moore?
    Mr. Moore. Thank you, Madam Chairwoman. I would say, based 
on our experience throughout all these years, that in previous 
years, one, that this is the first Administration that has not 
only spoke to environmental justice, but listened to 
environmental justice communities, and so this is crucial with 
the 40 Justice framework. Additionally, I would say in response 
to your question, Madam Chair, that it is important for this 
committee to understand that, one, I am not here representing 
the WHEJAC today, but those WHEJAC members in many cases are 
volunteers. And so, I have to give credit to the tremendous 
amount of work that the WHEJAC Council has done in terms of 
engaging with communities, bringing these experiences to the 
table as life and death issues.
    Very clearly, within the Justice40, and, as you said, that 
was released yesterday. Then based upon that, it calls upon all 
Federal agencies to create and lay a guideline for all Federal 
agencies to be able to--to look at the 40-percent investment 
and to make sure that that 40 percent is largely put in not 
only legacy communities and historical environmental justice 
communities, but that it is put in rural communities and so on. 
So, there are over 20 agencies that have addressed the interim 
guidance that was released yesterday and is very important to 
this. Thank you. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you. And, Mr. Mitchell, very 
briefly, your leadership in South Carolina is at the cutting 
edge of environmental justice legislation. What do you think 
effective implementation of the Federal Environmental Justice 
Initiative looks like, and then my time has expired. Thank you 
all. I wish I had an hour to ask more questions to all of you, 
but we have everybody waiting to talk. Mr. Mitchell?
    Mr. Mitchell. What that would look like is having what 
President Biden, when he was then candidate Biden, did, was 
listen to those on the ground, the frontline, fence-line 
members from around the country. And he asked us what could the 
government do to help fix these problems. And he actually put a 
plan together, listening to many of these folks from around the 
country, and didn't put it out until listening and talking, and 
wanting to make sure to get it right, because just like in 
South Carolina, Senator Fritz Hollings and Strom Thurmond in 
Spartanburg, on paper it was shown that the fertilizer plant 
was closed properly, but we found later that there was 
hazardous waste from Atlantic Station in Georgia that was 
shipped to Spartanburg, South Carolina for disposal. And this, 
as far as the release, had traumatic impacts within the 
community.
    Now, until you listen, and you get out of the beltway, and 
go into these communities and find out what those problems are 
to find the solutions, and this is exactly what President Biden 
did and influenced the Justice40 Initiative. So, I think once 
we're able to get on the ground, put these resources, find the 
needs, look at, as Ranking Member Comer stated, you know, we 
were in a pandemic. And the good thing about it, it showed us 
how we kicked the can down the road, and we didn't properly 
invest in healthcare, because when we look at the 
disproportionate impact of those that were affected, were many 
of the states that chose not to expand Medicaid. And these are 
people that didn't have medical coverage, underlying 
conditions, and those are the ones that we saw that tested 
positive and died.
    So, I think with this whole push right now with the 
Justice40 Initiative, being able to get it right and invest 
rightly in these communities with the proper oversight, I think 
we can turn around not only the black and brown, but the tribal 
and the entire country to move in the right direction of 
building back better.
    Chairwoman Maloney. Thank you. Just very briefly, and I am 
going to recognize Mr. Comer as much time as he needs. I just 
want to say in the weeks ahead, I plan to advance an All of the 
Benefits, None of the Harm Environmental Justice platform. Your 
testimony today from all of you will be invaluable in preparing 
this. And next month I hope to plan and hold a field hearing on 
the peaker power plants that Ms. Salter talked about that are 
polluting my district, Congresswoman Ocasio-Cortez's, and many 
other districts in New York City. And as chair of the Oversight 
Committee, I will be doing everything in my power to ensure 
that the Federal dollars get to the communities that need them, 
and that agencies incorporate environmental justice into their 
agendas. Thank you for your inspiring testimony.
    I recognize, at the request of Mr. Comer, the gentleman 
from Arizona, Mr. Gosar, for as much time as he may consume. 
Mr. Gosar.
    Mr. Gosar. Thank you, Madam Chair. I would like to first 
comment on the repetition of this hearing topic from the 
Environmental Subcommittee, yet we still have not held a 
hearing on the ongoing crisis at the southern border. I was 
just down in Casa Grande cleaning up and exploring a known 
superhighway of smuggling of drugs, human and sex trafficking 
in through Arizona, and can assure you there is a crisis 
occurring which we have yet to investigate. But I guess that is 
why we gave the majority an F for oversight recently.
    Mr. Biden, through his American Jobs Plan and other related 
climate Presidential actions, has committed an environmental 
injustice, putting climate at the forefront of national 
security and allegedly leading us into a new green future that 
will create American jobs and economic growth. Yet the reality 
of his policy proposals actually undermines those very stated 
goals. What do I mean by that? Let's begin with American Jobs 
Plan: $174 billion investment in electric vehicles. We can take 
it even higher from there because the entire electrified future 
has a similar issue: reliance on mining and processing of 
minerals.
    Outside of just electric vehicles, the IEA recently 
reported that the energy sector's need for minerals could rise 
as much as six times by 2040. Even though the American Jobs 
Plan calls for battery production, securing supply chains, and 
more, Mr. Biden and radical environmentalists have attacked and 
worked to shut down mines across the country, which produce 
cobalt, lithium, nickel, and more, all things needed for 
electric vehicles, batteries, turbines, solar panels, and more.
    So, while we increase our demand--so, while we increase 
demand but reduce American supply, we must look abroad from 
minerals in nations which lack labor and environmental rules we 
abide by here in the United States. We then get minerals mined 
in Congo by child labor to make our electric vehicles and solar 
panels for the electric grid that they want to get these 
vehicles to from slave labor in China. Does this sound like 
justice to any of you?
    Let's look at this from another direction. In the 
majority's memo for this hearing, they cite Mr. Biden's 
Executive Order 14008, which put the climate crisis at the 
forefront of the Nation's foreign policy and national security 
planning. Yet one of Mr. Biden's first actions was an attempt 
to ban oil and gas drilling or really any production or product 
which is connected to fossil fuels. In fact, the chairwoman 
highlighted this dirty oil and stuff coming out of Russia for 
the most part. However, just because we cut domestic production 
does not mean domestic consumption decreases. Why do you think 
the American people are so worried about inflation and 
skyrocketing gas prices? Because banning gas and oil production 
does not correlate with less trips to the pump for the American 
people, just more American oil and gas workers and companies 
out of business.
    So then, what do we do for energy sources, turn to foreign 
nations which produced these resources, like Russia, Venezuela, 
adversarial authoritarian nations? Does that sound like strong 
American national security? These nations not only hurt our 
national energy security, but they have much less strict 
environmental regulations. Because of the lax regulations and 
aging energy infrastructure, unlike in the U.S., we are 
importing energy from nations whose pipelines emit more methane 
than ours and are at risk of catastrophic accidents. Does 
higher emissions and higher risk of pollution from foreign 
energy sources sound like putting the climate crisis first in 
foreign policy? When our environmental rules drive American 
companies out, we don't stop using these resources. In fact, 
many of these resources are fundamental to the majority's plan 
for an electrified future. These globalist policies actually 
create more injustices around the world, have little impact on 
the actual pursuit of a green future, and sends the job and 
economic growth promise to foreign nations as we ban every 
domestic industry required to sustain America's energy needs 
for the future.
    The American Jobs Plan addresses none of these underlying 
issues, and, in fact, lies to the American people by suggesting 
it is accomplishing these issues--goals when, in reality, it is 
shipping these human rights and environmental issues overseas 
out of sight, out of mind. That is a dichotomy. Thank you, 
Madam Chair, and with that, I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentlelady from the District of Columbia, Ms. Norton, is now 
recognized. Ms. Norton?
    Ms. Norton. Thank you, Madam Chair, for this important 
hearing, notwithstanding what we just heard from the other 
side. The witnesses that you have invited today have just the 
kind of extensive background working at the grassroots level 
that we need, and particularly in the spirit of the President's 
Justice40 Initiative. I want to start with Ms. Salter because I 
am interested in enfranchisement and procedural justice, which 
are so important to the process of designing programs that 
actually work for the communities that they are meant to serve. 
Ms. Salter, you recommend that the American Jobs Plan include 
what you say are mechanisms for procedural and participatory 
justice designed to include frontline communities in all 
aspects of infrastructure investment decisions, so I would be 
very interested in examples of how this has been implemented at 
the state level.
    Ms. Salter. Thank you so much. That is an excellent 
question, and I will give you an example from New York State. 
So, I mentioned that it was activists who pushed for the 2019 
Climate and Community Protection Act and baked into the act 
were several procedural justice matters. One was the creation 
of a Climate Action Council, which is developing the state 
scoping plan that includes community members, including myself. 
Another key part of that process is a Climate Justice Working 
Group that the statute required be appointed and include 
environmental justice, frontline communities, and others. Now, 
they are the ones who are deciding who is a disadvantaged 
community under New York's Justice40. So, those are just a few 
examples of the type of, you know, procedural justice pieces 
where you actually get frontline leadership at the helm of 
decision-making.
    Ms. Norton. You have also pointed out that the--the funds 
directed at frontline communities are provided for community 
leadership. You indicate a number of things that they provide 
for, so I really want to get to how the Federal Government can 
best provide technical assistance.
    Ms. Salter. Yes. This is--sorry, ma'am. This is just one of 
those critically important areas, and I don't think that New 
York state is doing enough in this area, but that, really, 
frontline communities need a host of technical assistance if 
folks are to actually participate in these proceedings. And 
that means in some states, they have intervener compensation, 
which gives actual funds to participate in hearings and 
administrative dockets. I mean, that is just the beginning. 
There needs to be help so that communities can process 
applications, can access their own----
    Ms. Norton. From the Federal Government? From the Federal 
Government?
    Ms. Salter. Yes, ma'am, so that when a community group 
wants to apply, they can actually have assistance from an 
engineer or a grant writer to help them fill out application. 
That is one example.
    Ms. Norton. Thank you. Mr. Mitchell, let me turn to you. I 
think I have a little time left. Which existing Federal 
programs have been most important in serving the needs of the 
environmental justice community, and, at the same time, what 
Federal programs are actually missing the mark, and why do you 
think that's happening?
    Mr. Mitchell. I would say Health and Human Services, HUD, 
EPA for their cleanups of many of these legacy sites. Who is 
missing from the table, I would say, is the Department of 
Commerce and Department of Treasury. And as our witness, Mr. 
Hawkins, stated, that is a very important piece when you are 
talking about the opportunity zones and the opportunities to 
redevelop some of these sites where we can put into productive 
reuse once they are cleaned up and put into productive 
opportunities for job creation. And I would also add the 
Department of Labor, as witness Salter stated. You know, this 
is one of the things that the Department of Labor's work force 
investment and what we see from our technical colleges in our 
communities, that they could actually do the training and 
provide resources to nonprofits directly for their operations.
    Ms. Norton. Well, that's very important information that 
this committee should receive and make sure that those agencies 
are doing what you say is necessary. Thank you very much, Madam 
Chair.
    Chairwoman Maloney. Thank you. The gentlewoman from North 
Carolina, Dr. Foxx, is now recognized for five minutes.
    Ms. Foxx. Thank you very much, Madam Chairman, and I want 
to thank our witnesses for being here today. Mr. Hawkins, can 
you discuss how, in your opinion, the Green New Deal would 
impact communities that are economically disadvantaged?
    Mr. Hawkins. And so, thank you, Dr. Foxx. When we are 
looking at the Green New Deal, for instance, it's the 
combination of the problems and the potential negative impact 
on distressed communities come in two forms: one, in a 
regulatory environment that undermines job creation in these 
communities, and then, two, in the potential costs. So, right 
now, every month of 2021, we have seen an increase in 
inflation, so it's not something that is deliberate, but you 
could almost look at it as if--as if Congress imposed a 
deliberate 12 percent tax on the poorest Americans in the 
country. And so, we can't impose anything that would then add 
additional taxes onto the workers and onto the residents of 
these communities.
    Ms. Foxx. And we know the American people, all of them, are 
beginning to understand this, that the Biden Administration has 
brought an inflation, almost crisis, on the heads of Americans, 
and you are right, that always impacts the poorest in the 
Nation. Can you talk a little bit more about how it would 
impact, particularly, opportunity zones?
    Mr. Hawkins. Yes. So, opportunity zones are areas that 
Governors were able to designate for a specific type of tax-
advantaged investment, and these are areas that have a poverty 
rate of at least 20 percent and an average income within a 
state that is less than 80 percent of the state average, so it 
is the poorest areas of any given state or territory. Thirty-
seven percent of these areas are what we call hyper-distressed 
zones, and these are areas that have even more severe 
statistics in these areas. So, these areas are typically the 
first to be crammed down in a recession, and they are the last 
to recover when an economy is picking back up. And so, anything 
that would impose a more severe burden on these communities is 
going to be devastating.
    Ms. Foxx. Well, I think this is a pretty simple answer. I 
think we have seen it in the past, and I believe we will see it 
in the future, but you alluded to it in your first answer. 
Would you say that increased government regulations and 
bureaucratic red tape actually decrease jobs and economic 
opportunities and decrease it in disadvantaged communities? I 
think you have already said that, but I will let you say it 
again.
    Mr. Hawkins. Yes, it's problematic.
    Ms. Foxx. Right.
    Mr. Hawkins. The regulations should be limited to things 
that directly impact public safety within these communities. 
Anything else is just going to undermine job creation in those 
communities, and the lack of economic opportunity is the 
primary driver of distress in these communities.
    Ms. Foxx. Right. Well, we know that C02 emissions in China, 
India, and other nations are increasing while the same 
emissions are decreasing here in America. Do you believe that 
the Democrats' current proposal to curb emissions here, when 
they are already going down, will put us at an economic 
disadvantage compared to these other countries?
    Mr. Hawkins. I think the current proposals would put us at 
an economic disadvantage. You know, it is kind of like having, 
you know, one hand handcuffed behind your back in a fight. What 
we can say is that there are bipartisan proposals out there 
that make significant investments in traditional 
infrastructure, and, you know, clean energy that doesn't 
require severe tax increases that would come on top of the 
inflation tax that we are seeing on the poorest Americans.
    Ms. Foxx. Right. I think we need to continue to call it an 
inflation tax. I want to reiterate very quickly--I have a 
little time left--that reducing mandates and red tape will 
alleviate small communities, particularly economically 
disadvantaged communities. I think you and I agree on that, 
don't we?
    Mr. Hawkins. We do.
    Ms. Foxx. All right. Thank you very much, Madam Chair. I 
yield back.
    Chairwoman Maloney. Thank you. The gentleman from 
Massachusetts, Mr. Lynch, is recognized for five minutes. Mr. 
Lynch?
    Mr. Lynch. Yes, thank you, Madam Chair. To begin with, it 
gives me no pleasure at all to remind my colleagues on the 
other side of the aisle who are complaining about which topics 
that we bring up for oversight investigation. I just want to 
remind them of what happened on January 6, and I watched my 
colleagues run for their lives in the face of the attacks on 
the Capitol. And then after the attacks on the Capitol, and the 
loss of life, and the damage to the very building that we sit 
in, I watched my colleagues on the other side of the aisle run 
again, away from any investigation of the attacks on the 
Capitol. So, please spare me these arguments about the choice 
of things to investigate. If you want to investigate something, 
investigate your oath of office. Investigate your oath of 
office. Go look at it, when you solemnly swore to protect and 
defend the Constitution of the United States and give true 
faith and allegiance for all that it stands for, so help me 
God. And then revisit your actions on that day and thereafter, 
OK?
    Now, I will turn to the subject. First of all, I want to 
thank all these wonderful witnesses that have engaged on this 
issue. I happen to represent the city of Brockton, which is a 
minority-majority city. We have got elevated asthma. They have 
had a very, very tough time dealing with this pandemic. We have 
had a lot of loss of life and a lot of cases of COVID. And I 
want to thank the chairwoman, Mrs. Maloney, for helping me. We 
got an amendment through on the postal bill that would actually 
convert all of the postal vehicles, post office vehicles, 
237,000 vehicles, to zero emission vehicles in a very short 
period of time, and I am very happy to say in the 
transportation bill, I also got a bill called the Green Buses 
for Every City Act. A lot of these smaller communities really 
rely on the bus service, and they have got these old diesel 
buses that are causing great havoc with the air quality in 
these cities.
    And I just want to ask Attorney Salter, you sort of hit on 
this in your opening remarks. We're trying 100 different things 
to address, you know, the environmental justice issue in black 
and brown communities, but I'm worried about how we measure 
that if we are trying all these different responses. Do we have 
accurate tools that allow us to determine what are the best 
practices? What are we doing that is of the greatest benefit to 
these communities? Do we have those tools, do we still need to 
develop them, and is there a clearinghouse or a group that is 
tracking the improvement, because it may be incremental over a 
certain period of time? But I would like to get your thoughts 
on that, please.
    Ms. Salter. Thank you so much. So, we do have tools, and we 
also need to develop more, and part of this is sort of 
resources to fund the full investigations of the infrastructure 
that we already have. For instance, New York law, the CLCPA, 
requires a full accounting and pilot programs to begin actually 
going through areas and measuring--specifically measuring co-
pollutants and greenhouse gas emissions so we can actually 
develop that baseline that we need, and then implement these 
case studies and these scalable solutions, and then actually 
track and see how we do as we go. And so, we need the support 
of the Federal Government and others to fund these types of 
projects so that we can know what we are dealing with, bring in 
the solutions that will work, and measure and track it. And 
that's something also we truly hope this committee will 
continue to do in oversight.
    Mr. Lynch. OK. Thank you very much. Madam Chair, I see my 
time has just about expired, so I will yield back. Thank you 
very much.
    Chairwoman Maloney. Thank you, and the gentleman from 
Georgia, Mr. Hice, is now recognized for five minutes. Mr. 
Hice?
    Mr. Hice. Thank you, Madam Chair, and I would just remind 
my colleague that we have had multiple hearings on January 6, 
and we don't really need the self-righteous preaching from him 
when there were 574 other declared riots, and I don't recall 
him or any of my colleagues on the left trying to do anything 
about those, or address BLM or Antifa, or any such thing.
    I have heard a lot of talk today about equality and equity, 
which, of course, equity for my Democratic colleagues is just 
another code word for ``socialism,'' taking from one and giving 
to another. This is not how America operates. But Madam Chair, 
I would just say yet again today, there is not equality and 
equity in this committee room. We have five witnesses from the 
majority side, only one for the minority. There is no equity, 
there is no equality in that, and yet another one was added 
even today or yesterday, and we didn't even know anything about 
it. Coming to this hearing today, I think this is yet just 
another example of a massive attempt of distraction from the 
majority party to hide the devastation that is happening in our 
country today, and we need real oversight. It's time for us to 
do our job as a committee.
    There is a lot of talk praising President Biden today. But 
look, this committee ought to be discussing things like the 
surge of immigrants that are crossing our border right now, 
and, in light of that, let's give credit where credit is due, 
and let's tag this one on President Biden's shoulders as well. 
We just had an announcement by Customs and Border Protection of 
over 888,000 enforcement encounters at our southern border in 
June, last month, a 450 percent increase over June of last 
year. Four hundred and fifty percent increase. It is 
unbelievable. We have seen disturbing footage coming from our 
southern border. The Rio Grande Valley sector chief agent 
tweeted that they apprehended over 15,000 migrants in just one 
week.
    Simultaneously, this committee ought to be dealing with 
things like skyrocketing cost of living costs. Americans are 
paying more for goods and services because of out-of-control 
Democratic-led spending. And now we are watching the 
development of potentially of a $3-and-a-half trillion, 
possibly $5 trillion package of more spending coming from our 
Democratic colleagues. This is going to be devastating to the 
American families who are already struggling to get by. And 
speaking of spending, the government spent trillions of dollars 
on COVID relief in the past year, but in recent months, we have 
found that there has been a lot of fraud in all of that. In 
fact, an NBC article stated that the Labor Department Inspector 
General estimates over $63 billion of fraudulent disbursements. 
This is unbelievable. In fact, they are saying that it could be 
much higher than that, well in excess of $100 billion. Madam 
Chair, I want to know, are we going to have any hearings about 
this to investigate the fraud and abuse of the COVID relief 
money that they went out? It would seem that this is the type 
of waste, fraud, and abuse that this committee ought to be 
looking into.
    And rather than justice for the environment, why aren't we 
talking about justice for people who are living in violent 
cities? We are seeing crime has risen 23 percent overall. This 
past year, according to the National Fraternal Order of Police, 
they recently put out that homicides and shootings have 
increased exponentially since President Trump left office. 
Homicides are up to 58 percent in Atlanta, in my home state, 
533 percent up in Portland, 37 percent up in Philadelphia. 
Shootings are up 54 percent in New York City, in Los Angeles, 
in Chicago. Listen, there are more people being harmed by the 
rise of crime than there are from the environment in these 
cities, I can assure you.
    And finally, we have bills like the Green New Deal that is 
ultimately really not even about the environment. The Green New 
Deal ultimately, fundamentally is about changing our country 
into being more socialist. We have a since deleted fact sheet 
circulated from the representative who introduced the Green New 
Deal, and they said that the real attempt, it is a ``massive 
transformation of our society.'' They also said that it was 
hopefully going to provide ``economic security for all who are 
unable or unwilling to work.'' Stunning. So, this is what the 
Green New Deal is. In fact, the former chief of staff of this 
same member said, ``The interesting thing about the Green New 
Deal is that it wasn't originally a climate change thing at 
all. It was really a thing of how do you change the entire 
economy thing.'' It is because of statements like this that we 
know that this hearing, in itself, is a fraud.
    It is time for us to do our job, stop the show, do real 
oversight, Madam Chair. And I realize that will probably be 
very uncomfortable if we actually did our job of oversight in 
this committee, dealing with specifically the devastation 
happening in our country due to out-of-control spending and 
policies of the Democratic Party and the incoherent leadership 
coming from the White House. But, nonetheless, that is our job, 
our task to do oversight, and I urge us to get on with the 
business that we are supposed to do.
    Chairwoman Maloney. Your time has expired. The gentleman's 
time has expired, and the gentleman from Virginia, Mr. 
Connolly, is now recognized for five minutes. Mr. Connolly, you 
are now recognized.
    Mr. Connolly. Thank you, Madam Chairwoman, but I am willing 
to yield my time, and then be recognized next round, to Mr. 
Gomez, who I believe has a scheduling conflict. Mr. Gomez, do 
you still wish me to yield?
    Mr. Gomez. Yes, please.
    Mr. Connolly. Absolutely.
    Mr. Gomez. Thank you so much, Mr. Connolly. First, 
Chairwoman Maloney, thank you so much for having this important 
discussion on climate change. It is very important. But at the 
same time, also discussing the fact that disadvantaged 
communities, people of color, rural areas are also hit 
disproportionately by climate change, especially when it comes 
to pollution, when it comes to just a variety of factors, and 
this impacts Democrats and Republicans, right, in rural areas 
and in urban areas. So, we have to do--take extra steps to make 
sure that when we combat climate change, it has a direct impact 
on those people who are having the disproportionate impact of 
climate change.
    And that's one of the things that, in California, we have 
focused on when before I got to the California State Assembly, 
where I served starting in 2013 to 2017. And there we passed a 
bill called S.B. 535 by Kevin de Leon that created the 
CalEnviro Screen, on where we would target the greenhouse gas 
reduction funds that we got from cap and trade and in what 
communities. But when I got there, we discovered that that law 
didn't work as intended because one of the things that it said, 
is it said the money from the greenhouse gas reduction funding 
would go--should benefit disadvantaged people, 25 percent.
    So, one of the things that they ended up doing is, you 
know, they would say that this project way over here, if it is 
a train that passes a disadvantaged community that was hoping 
to get cars off the road, that was cleaning up the air, that 
was good enough, and that was benefiting. But you know what? A 
train going by my communities doesn't benefit my communities. 
It doesn't benefit the rural areas. So, I passed a bill called 
A.B. 1550 that increased the amount to 35 percent of all cap-
and-trade dollars that must go to disadvantaged communities, 
but directly in disadvantaged communities, not next door, not 
somebody who is just driving a Tesla in my community that says, 
you know, because it's not polluting, it is cleaning up my 
communities. No, I wanted the benefits to be directly in the 
communities I represent.
    It passed. It is law. It is having a profound impact when 
it comes to making sure those benefits, right, and the co-
benefits of reducing pollution, reducing poverty are all added 
in. It's a huge deal. It passed with bipartisan support, with 
Republicans voting in the affirmative, and it also went up to 
35 percent in targeted low-income areas, including Republican 
areas. That is how we actually bridge the green divide that 
exists, making everybody--making sure that everybody benefits 
from this kind of program. And that is what we have to continue 
doing is focusing those resources to the communities that have 
been left behind. So, I am proud of that bill.
    And guess what? To my Republican colleagues, there was a 
plant that opened up. It was an electric bus plant in 
Bakersfield, and it was opening up an assembly plant that was 
to provide electric buses for a lot of California. And who was 
there at the ribbon-cutting? Kevin McCarthy, the leader of the 
Republicans who was just attacking the cap-and-trade program a 
few months earlier. So, for me, sometimes the Republicans like 
to talk trash about what we are doing, but they love to try to 
take the credit for what we are doing, everything from climate 
change or to the American Rescue Plan.
    So, we are going to keep moving forward because we know 
this is going to benefit everybody, not just Democrats, not 
just urban areas, but rural areas as well. And I know that 
there was a release of the Justice40 Initiative, the 
implementation guideline, by this White House. I want to ask 
some of our panel what you guys thought about it. Mr. Moore, 
let's start with you. What did you think of the Initiative, the 
guidance, first blush?
    Mr. Moore. Thank you, Committee Member. You know, as I 
stated earlier, you know, in this process, I think that we need 
to understand that much of what has been recommended in the 
Justice40 at this moment, interim guidance, is issues that have 
been expressed by environmental and economic justice 
communities for many, many years. So, what I will say, again, 
to commend the work of the WHEJAC Council, but additionally, 
that much of what is in that interim guidance is what was 
recommended by our communities and what was reinforced by the 
WHEJAC members. So, I feel very positive about the interim 
guidance at this point. Last is to say it is an interim 
guidance. There will be more opportunity for engagement around 
the guidance, and so we totally support and will continue to 
support that at the same time.
    Mr. Gomez. Well, thank you. One of the things--I am going 
to take a close look at it because words do matter.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Gomez. Words do matter. Directing benefits can lead to 
just the same old, same old, or actually lead to a 
transformative effect for these communities. So, with that, 
Chairwoman Maloney, thank you so much for letting me go out of 
order. Thank you so much, and I yield back.
    Chairwoman Maloney. OK. Thank you. Thank you. The gentleman 
from Texas, Mr. Cloud, is recognized for five minutes. Mr. 
Cloud?
    Mr. Cloud. Thank you, Chair, and thank you all for being 
here to share your perspectives. As with many of the issues we 
talk about, I think it is important to look at them in context 
because many of the issues we face, we don't approach them 
properly if they aren't in the proper context. Now, the chair 
made the comment that the Nation is in a climate emergency, and 
I found that interesting considering that the environment does 
not stop at our borders. And so, it is important that we look 
at a global environment from a global perspective, and the 
truth is, is that the world's demand on energy is growing. That 
is actually a good thing. That is people coming out of poverty. 
That is people being able to heat their homes for the first 
time or find mobility.
    The question then comes, who will meet that demand, and I 
am under the belief that it is better for U.S. companies to 
meet that demand than nations certainly that are adversarial to 
us. We began to see this as we made a transition from an 
energy-dominant, or--energy-dependent to an energy-dominant 
nation in the last few years. That led to us having strength at 
the negotiating table for better trade deals, for even Middle 
East peace deals. And when we are talking about the 
environment, it is important to note that war is bad for the 
environment. It is bad for the human condition, but it is also 
bad for the environment. And so, the answer then, what we see 
when we look at U.S. companies and U.S. industry versus 
industry in other nations is that, by and large, while we have 
room to improve, with every single generation, technology 
should advance. We should get better, that--that U.S. companies 
are doing this better than most of the world.
    And so, the answer really here should be, let's look at 
U.S. exports. Let's look at us having a larger share of the 
world's energy production, and then let's look at what we can 
do because the truth is, the greatest reduction in carbon 
emissions right now has been led by the U.S. oil and gas 
industry. And so, we can look at new technologies. We all want 
clean air and water. There are new technologies that are coming 
to bear even in the oil and gas industry with carbon capture 
and the like, so this really should be an all-encompassing 
discussion. We want clean air and water for our communities, we 
want people to thrive and prosper, but we do need to look at 
that.
    And just to put it in context, you know, there is almost a 
move, especially with the extreme interpretations of the Green 
New Deal, to have us, in a sense, run back from the industrial 
age as if that was a bad thing. But the truth is it was a good 
thing. It had some, like every advancement in technology, cost 
benefits. You know, there were some costs. There were some 
benefits. We should look at the costs and figure out, like I 
said, what the next generation had improved, but the truth is 
that this is the life expectancy over the last bit.
    And so, you can see the U.S. leads the world, but we have 
been improving with each generation. The thing we don't need to 
do is to draw back from that. Right now, this is U.S. access to 
electricity versus the rest of the world, the U.S. virtually 
almost 100 percent. Now, if people can't afford it, then that's 
different, and what we have seen over the last few months is 
a--is an effort to undermine energy production in the United 
States. And so, we have inflation going up, we have costs going 
up, and that puts a disproportionate burden on the 
disadvantaged. What we need to do is get back to policies that 
bring access, reduced costs to communities, so people can 
afford their energy and have good jobs, and we can look to 
companies and we should hold bad companies and bad actors 
accountable. For sure we should, but there is a broader 
perspective to be brought to this.
    I think it is important to point out, too, and maybe, Mr. 
Mitchell, do you know--the Administration--when we talk about 
green energy, we have to talk about rare earth minerals. Every 
discussion needs to start with that. Is the Administration 
looking to domestically source the minerals that are needed for 
transition? To--do you know? Are you aware? I wish we had an 
Administration official here to ask, but you are the closest we 
have so far, so.
    Mr. Mitchell. No, sir, I will not speak on that.
    Mr. Cloud. I am sorry?
    Mr. Mitchell. I said, no, sir, I do not know the answer to 
that.
    Mr. Cloud. You don't know? OK. Right now, the U.S. is 
reliant 100 percent on rare earth minerals from other 
countries, and so the leading producer of rare earth minerals 
right now is China. And so, we need to strongly consider, as we 
look at this, if the world is a better place with the U.S. 
being a dominant producer of energy or China being the 
predominant producer and holder of U.S. energy exports and 
resources. So, you know, if we are going to have a discussion 
on green energy, it has to start with us having U.S. access to 
rare earth minerals, and until we are willing to have that 
discussion, we need to continue along the course that has led 
to relative peace and prosperity for American families. Thank 
you, and I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Virginia, Mr. Connolly, is now recognized. Mr. 
Connolly?
    Mr. Connolly. Thank you, Madam Chairwoman, and thank you 
for holding this hearing. I think we kind of maybe lost sight 
of what it is we are discussing today, and maybe we could try 
to get back to that. I got to admit I was kind of shocked by 
the gentleman from Georgia and his long statement dismissing, 
among other things, the whole concept of environmental justice, 
that there are communities that are disproportionately impacted 
by adverse environmental impacts, and they tend to be 
disproportionately low-income communities, communities of 
color. That is a historic fact, and that needs to be redressed.
    Mr. Mitchell, speaking of that redress, you talked about if 
we are going to go forward with plans to address this subject, 
we have got to have, you said, a willing partner in the Federal 
Government. Do you believe that the Administration's Justice40 
Initiative sets the table to be that willing partner you are 
seeking?
    Mr. Mitchell. Yes, sir, I feel that we--the Administration, 
we have the tools. We just need to commitment. And I think for 
the first time, being able to listen to those that are on the 
ground and find out what those needs are, to plug into some of 
the problems that we see, like the 100-plus-year-old lead pipes 
that are in the ground, replacing those. You know, that's job 
creation there as far as being able to create jobs and train 
folks in those communities to be able to remove those 100-plus-
year-old lead pipes, and especially to water infrastructure 
issues that we see facing a lot of our communities, especially 
in the Black Belt. This would help spur development when you 
remove things of that nature and begin to invest back into 
communities.
    And I think this is the positive side of what we see out of 
Justice40, is being able to springboard back into these 
disadvantaged communities. And I will say, troubling, like I am 
hearing here today, the comments back and forth, but I would 
like to do something even, like, with our witness, Mr. Hawkins, 
being able to bring in these opportunity zone opportunities to 
communities where we often have heard it being opportunist 
zones because where those opportunities zones were designated, 
as was stated earlier, from our Governors and developers, many 
of these opportunities zones were not designated and looked at, 
you know, into these communities that we are talking about. And 
this is not coming from me. This is coming from Ja'Ron Smith, 
who headed up that from the Trump Administration, who stated, 
yes, we missed the mark on not identifying and being able to 
locate in those communities of color, as we have heard.
    I saw the testimony and hearing on the opportunity zones, 
but I have failed to hear and see where those designations were 
and the impacts. Of what--I have heard the rhetoric about how 
it has pushed the needle. Yes, it has pushed it, but I would 
like to get those capital investments of what has worked, as 
Mr. Hawkins stated, into a lot of these communities that we're 
talking about now. And if we take that kind of an effort to 
move forward, we can turn and make this a more prosperous 
country.
    Madam Chairwoman, I would say that Nikki Haley, Mick 
Mulvaney, and Congressman Norman, who is here today, supported 
my environmental justice bill in South Carolina because they 
saw the economic impact, not the rhetoric of blue and red 
states. You know, when they took their oath, they said that 
they were serving everybody, and that is----
    Mr. Connolly. Mr. Mitchell. Mr. Mitchell, you are actually 
addressing me, Mr. Connolly, not the chairwoman, and I really 
appreciate your comments and your insights, but I am running 
out of time, and I would like to get in one other question to 
another panelist, Mr. Guerrero. You also--you talked about, Mr. 
Guerrero, Colorado's Just Transition Program, and you said 
that, again, you would need the Federal Government if that is 
going to be ultimately implemented and successful. Could you 
elaborate on that Federal Government role you were referring 
to?
    Mr. Guerrero. Yes. Thank you, Representative Connolly. So, 
what we understand is that the program could cost as much as 
$100 million a year to fully implement. The state of Colorado 
actually used American Rescue Plan funds for its initial 
investment into those programs, but it is going to require 
sustained investment over time for it to actually work. And 
this is an absolute necessity if we really want to do this 
transition correctly, both in terms of investing in 
environmental justice and the transition of workers and 
communities that are going to be impacted.
    Mr. Connolly. Thank you so much, and Madam Chairwoman, 
thank you again for accommodating the switch with Mr. Gomez. I 
appreciate it.
    Chairwoman Maloney. Thank you. The gentleman from Texas, 
Mr. Sessions, is recognized for five minutes.
    Mr. Sessions. Madam Chairwoman, thank you very much, and I 
appreciate this hearing today. I, too, like our ranking member 
and also Mr. Cloud, I believe that there is no one here to 
answer questions because, in fact, I don't believe the 
Administration has the answers to the questions that we bring. 
But with that said, I would like to engage Mrs. Salter, or Ms. 
Salter, the gentlewoman from New York who is a lawyer, who has 
offered her fine testimony today. And I would like to engage 
her off the issue of LIHEAP and have her tell me what the plans 
are for LIHEAP, because she talked about the New York plans 
being really models for the country. And I would like for her 
to describe LIHEAP and the pieces of home heating fuel that 
they accomplish each year in New York City.
    Ms. Salter. Thank you for that question. So, he is 
referring to the energy assistance program in New York, and 
that is something that is absolutely a fact. All throughout 
this country, customers are facing utility shutoffs. They are 
holding onto energy burdens that they cannot afford, and the 
need for energy assistance far outstrips the resources 
available, and that is something that will be critical for the 
American Jobs Plan to address.
    Mr. Sessions. OK. Could you talk to me about what kind of 
energy and fuel you use in New York City related to that home 
heating fuel plan that New York City utilizes?
    Ms. Salter. Well, the heating program is a statewide energy 
assistance program, and so there are several types of fuel that 
are used, and what we want to do is move to clean energy.
    Mr. Sessions. OK. So, you have had a chance in the state of 
New York to move, a number of years ago, to natural gas, and 
there was huge and widespread disagreement by labor as well as 
other environmental rights people. And yet you continue to use 
diesel and dump diesel directly into your LIHEAP plan to fuel 
New York City, and then there is a complaint that you have got 
all these sick people. Can you talk to me about what the plan 
is then that you--that you talked about, the early action plan?
    Ms. Salter. We need to take early action to reduce those 
co-pollutants and reduce greenhouse gas emissions in New York 
City and throughout New York state, and that is exactly what we 
are planning to do is move to clean electrification of 
buildings, move away from fossil fuels throughout the state, 
and that is indeed the plan.
    Mr. Sessions. Yes, ma'am. I heard mention, you know, that 
you would use cellular, you know, the new technologies. Will 
that work during the winter in New York City?
    Ms. Salter. I am not sure what new technologies that you 
are----
    Mr. Sessions. Well, there's--one would be a reliant base, 
as I understand it, of having a grid system, that you would 
rely on the sun.
    Ms. Salter. Grid modernization and addressing the issues of 
updating our grid infrastructure is absolutely critical, and 
that is what we need to move forward on in New York. As we know 
the Federal--Fed of Dallas estimated that just the outage due 
to the natural gas interruption because of weather in Texas 
cost between $80 and $130 billion. So, that is the challenge 
that we want to take up in New York is to address--modernize 
our infrastructure so that we do not see those type of short-
term interruptions devastate our entire state economy.
    Mr. Sessions. Yes, ma'am. So, would that include natural 
gas that you are speaking about, or would that be nuclear power 
then?
    Ms. Salter. The Climate Leadership and Community Protection 
Act says there will be clean electricity and not natural gas.
    Mr. Sessions. And with that clean electricity, what would 
the source be?
    Ms. Salter. We are looking at deep investments in energy 
efficiency. We are looking at solar, offshore wind, increasing 
transmission so we can also have local renewables of similar 
types, and also hydropower.
    Mr. Sessions. So, you now went to solar, which is what I 
had wanted the gentlewoman to address. Does solar work during--
could that be a reliable source for New York City in the 
wintertime?
    Ms. Salter. Solar--the combination of large-scale storage 
and solar can indeed handle the intermittency and get us to 
where we need to go.
    Mr. Sessions. OK. Well, Madam Chairman, I would suggest 
that this is an important hearing and would bring us really 
closer to understanding, but I believe it is kind of like the 
Amazon 25,000 jobs that were offered to New York City from 
Amazon that they turned down. Well, so they are also turning 
down natural gas, to begin building that today as opposed to 
dumping home heating fuel, which is diesel, which is causing 
these people to be sick. And so, it's my hope that New York 
City or that this investigation would reveal that we would 
encourage them immediately to go to natural gas because we have 
supplies that would be available. I yield back my time.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Illinois, Mr. Davis, is now recognized for five 
minutes.
    Mr. Davis. Thank you, Madam Chairman, and I certainly want 
to thank you for holding this very informative and important 
hearing. We have witnessed firsthand the impact of carbon 
emissions, which have caused stronger storm patterns and 
catastrophic weather events all over the world, but not all 
communities are impacted equally. Unfortunately, communities of 
color and low-income communities often pay a higher price for 
our collective failure to address climate change. According to 
a study by the University of Michigan, when Hurricane Katrina 
struck Louisiana in 2005, the damage was most concentrated in 
low-income African-American communities. In Chicago, from 2007 
to 2016, 87 percent of flood insurance claims were made by 
communities of color, and in 2017, Hurricane Harvey devastated 
low-income minority neighborhoods in Houston. Ms. Salter, I 
thank you for your testimony, as I do all of the witnesses. You 
were living in New York when Superstorm Sandy caused over $19 
billion in damage. Is that correct?
    Ms. Salter. Yes, sir.
    Mr. Davis. Which communities were hit the hardest?
    Ms. Salter. It won't surprise you that low-income 
communities of color were hit the hardest, sir. In fact, I know 
many folks who lived in public housing, one friend in 
particular, whose entire apartment was flooded, and she was 
houseless until she was able to resettle. It was a devastating 
event. Many recall that famous picture from Hurricane Sandy 
where the entire of Manhattan was black, except for Goldman 
Sachs. They had resilient backup power at the bottom of 
Manhattan. So, yes, sir, low-income communities of color were 
indeed the hardest hit.
    Mr. Davis. Well, let me ask you, what can we expect the 
economic impact to be in 50 years if we do not start 
prioritizing climate change considerations in new energy and 
community development projects now?
    Ms. Salter. Sir, that is exactly the question of the day 
because the costs of inaction far outweigh the cost to take 
action. We mentioned $130 billion of value lost in Texas in 
just that recent gas interruption, $63 billion from Hurricane 
Sandy, $125 billion from Hurricane Harvey, Hurricane Katrina, 
on and on and on. So, that is--we use some of those baselines 
in New York but think about what we are looking at even from 
flooding, and the costs are astronomical. So, it is about 
survival, and it is about making those investments now.
    Mr. Davis. Thank you. Given this urgency, I really want to 
commend you and the great work of many of your fellow 
colleagues, community leaders, and activists for the progress 
you have made on New York's Climate Leadership and Community 
Protection Act, or the CLCPA. You mentioned in your written 
statement that the law's 40 percent spending mandate has been 
incorporated into some major spending programs so far, like the 
Regional Greenhouse Gas Initiative and the New York Clean 
Energy Fund. Can you give some examples of the differences 
these redirected resources have made so far?
    Ms. Salter. Yes, sir, and we are--we have been working very 
hard to see that these funds get redirected in what we are 
looking at, and that is where I can also emphasize that we need 
to really think about this metric as dollars spent because that 
is where we have seen the success. We have seen in the Clean 
Energy Fund just recently, in the next five years, hundreds of 
millions of dollars will be directed directly, in particular 
from the Newark to Green Bank, to disadvantaged communities, in 
particular energy efficiency and building electrification, 
getting off the dirty fuels that I spoke about before. So, that 
is one example of how, when you talk about it in terms of 
dollars spent and that you see the funds redirected, you can 
actually get funds flowing to the communities that need it.
    Mr. Davis. Thank you very much and let me quickly turn to 
Mr. Moore. Mr. Moore, do you anticipate facing similar 
challenges with Federal implementation?
    Mr. Moore. Thank you, Committee Member. I think, as we 
said, in terms of the interim guidance, I think very clearly 
that the guidance is providing the type of guidance that is 
necessary with the Federal agencies, so I think as an interim, 
moving toward a full guidance, I think we are all right. I just 
want to say, Committee Member, also the comments that the 
honorable Harold Mitchell has made, that then we have the 
challenge of when those funds go to the state, then what is the 
accountability and the responsibility, but the accountability 
on the part of the state, to make sure that those resources are 
put back in the hands that are the most highly needed in 
grassroots communities, communities of color, and native 
indigenous communities. Thank you, Committee Member.
    Mr. Davis. Thank you both very much, and I want to thank 
all of the witnesses. Again, I thank you, Madam Chairman, for 
holding this hearing, and I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from South Carolina, Mr. Norman, is recognized.
    Mr. Norman. Thank you, Chairwoman Maloney. I want to 
welcome Harold Mitchell. We go way back in the state General 
Assembly. Thank you for coming. And, Shay, thank you for coming 
again. Great witness before. Ms. Salter, let me just follow-up 
on what Congressman Sessions asked. Is natural gas a dirty 
fuel?
    Ms. Salter. Yes, sir, it is a fossil fuel, and certainly 
pursuant to the New York law.
    Mr. Norman. And what percentage of New York is dependent 
now on natural gas and other fossil fuels?
    Ms. Salter. We are working on our plan for building 
electrification that will not need to use fossil fuel, and that 
is the movement in New York away from fossil fuel to clean 
energy.
    Mr. Norman. And did I hear you say that solar panels, 
passive solar is a reliable alternative to the current fossil 
fuels that are used in New York?
    Ms. Salter. Solar paired with long-term storage and a deep 
energy efficiency can be a solution to peak energy, yes.
    Mr. Norman. Ms. Salter, I am one that is in the development 
world. We have looked closely at passive solar, particularly 
for water, heating water. It is not a reliable source. We 
looked on it as a--it could be an alternative source, but not 
reliable. When you look at, you know, providing hot water, you 
cannot use that. And I don't know--who is paying for this 
electrification and change over, which is a massive change 
over? Who is footing the bill for that, in your opinion, or who 
do you want to foot the bill for it?
    Ms. Salter. There are many examples throughout the country 
and throughout the world of how clean energy can address the 
heating and cooling needs of urban areas, of suburban areas, of 
the exurbs. It can include things like geothermal, and, yes, it 
can include things like long-term battery storage----
    Mr. Norman. Who is paying for that? I get that, but to make 
the transition, can you tell me who is going to bear the brunt? 
Who are you suggesting get involved and make this massive 
transition?
    Ms. Salter. We need to have the transition. We need--in New 
York we have pursued legislation, for instance, the Climate and 
Community Investment Act, where we can actually put a fee on 
carbon so that the polluters are the ones who pay for the 
transition. But we do need----
    Mr. Norman. OK. So, you are saying the taxpayers pick up 
the tab.
    Ms. Salter. What I said was that the polluters themselves 
would be the ones who would need to pay polluter damage.
    Mr. Norman. Well, let me----
    Ms. Salter. That is--that is one solution.
    Mr. Norman. Those companies that are currently on fossil 
fuels that you say are so dirty pay taxes to New York. They are 
the ones who foot the bill for whatever taxes that now have 
been greatly reduced, but you put that kind of carbon tax on 
them to force them without the private sector being involved. 
And like Harold mentioned, on opportunity zones, that is a 
perfect example. In South Carolina, and I was just at one with 
Senator Scott this weekend, they were put in disadvantaged 
areas based on a census tract, and companies are coming in 
because it is advantageous from a 5-year and 10-year tax plan, 
which is a good thing. They were put in property that would not 
be used, Kershaw County, dense county. It has income ranges of 
all sizes, but this opportunity zones were in areas that would 
not be developed without this. That is a good thing. It is 
private investment involved, but it is a massive undertaking.
    For you to say--basically, you are saying you are going to 
tax the companies to make them change when they are struggling 
right now. They have been shut down for a year and a half. Mr. 
Connolly mentioned the inequality that is going on in this 
country. The biggest inequality that is going on is the--is the 
gas prices that we are paying due to this administration 
cutting off the pipelines for producing gas in the United 
States and giving it to countries that are not our friends. 
That is the most ludicrous plan I could ever think of. And the 
jobs that have been cut and permanently put out business, it is 
an injustice. And that is one of the biggest inequalities 
because everybody uses gas now, right, wrong, or indifferent, 
and it is not just filling up your car. It is the food that you 
buy at the grocery stores. It is the airplanes that you fly on. 
If you are going to have a massive transition, it is going to 
come a tremendous cost, but you are going to have to have the 
private sector lead the way, not government. I yield back.
    Ms. Salter. Well, I can assure you, sir, that the injustice 
to the oil and gas and fossil fuel industry is not the primary 
injustice that is happening. And it is well known that 
opportunity zones provide opportunity to new businesses and to 
hedge funds, and not to local small businesses.
    Mr. Norman. Who is paying the price on gasoline now? Is it 
one particular segment now?
    Ms. Salter. I am not sure what you mean by ``paying the 
price on gasoline,'' but----
    Mr. Norman. When you fill up----
    Ms. Salter [continuing]. But I can tell you with absolute 
certainty, sir, that the damage caused by polluters to 
communities, to individuals, far outweighs any perceived 
injustice. They have done very well and they continue to do 
very well.
    Mr. Norman. And we are not putting any restrictions on 
China, who is the biggest polluter of greenhouse gases.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman's time has expired. The gentleman from Maryland, Mr. 
Raskin, is now recognized for five minutes.
    Mr. Raskin. Madam Chair, thank you very much, and I move to 
strike the last word. We are in a global civilizational 
emergency with climate change right now. A hundred and seventy-
one Germans were just killed in Dresden and in other eastern 
regions of the country in unprecedented flooding that will cost 
upwards of $6 billion for the German government to try to 
repair. We have seen shocking and unprecedented heat waves 
throughout the western part of the United States, affecting 
people in California, Idaho, Nevada, Washington, Oregon, 115-
degree weather, 120-degree weather. This heat wave at the end 
of June was made 150 times more likely by climate change. This 
was described by meteorologists as a 1 in 1,000 chance event, 
and now these kinds of heatwaves are becoming regular and have 
sparked out-of-control wildfires, some spreading distances of 
more than hundreds of square miles.
    The fossil fuel companies knew about the link between 
carbon emissions and climate change for many decades, and yet 
suppressed the evidence of it and, in fact, funded climate 
denial campaigns that they understood were a direct attempt to 
mislead the public, also that they could continue to build more 
oil and gas pipelines. And in the process, they took advantage 
of discriminatory land use policies to buy up cheap land and 
push through hazardous projects, leaving especially communities 
of color vulnerable to dangerous environmental toxins. These 
practices have led to the devastating health issues that we 
heard from witnesses today. And in some cases, residents were 
even harassed to sell their land as the companies worked to 
clear property for their projects in African-American 
communities, Native-American communities, and communities of 
color, without real consent from the residents. And when they 
resisted, the companies often got eminent domain permits that 
allowed them to acquire the private property and simply 
trampled rights of the residents.
    One example of this is the Eastern Maryland Shore pipeline 
project, which cuts through Somerset County, which is the 
poorest county in my state, in Maryland. A Chesapeake Climate 
Action Network study found, ``The majority of the census tracts 
in the pipeline's path include large numbers of people of color 
and low-income people,'' but the project was approved despite 
the efforts of environmental and civil rights groups. It is 
clear that we need to work to protect our communities against 
corporate interests that have no concern whatsoever for the 
public health, much less the health and well-being of specific 
communities in the pathway of the pipelines. Ms. Salter, do you 
believe that communities should have a meaningful say in which 
corporations are able to buy up property and take property for 
the purposes of constructing pipelines?
    Ms. Salter. Absolutely. Well, we would like to see the end 
of fossil fuel pipelines for sure, and, absolutely, communities 
should have decision-making power and involvement in all of 
these infrastructure decisions. And, certainly, the types of 
companies that you are talking about, the companies that have 
long known the damage they are causing, can hardly be trusted 
to lead a clean pathway forward. But yes, the idea of community 
engagement, and leadership, and consultation through methods 
like participatory budgeting, I believe are essential for just 
energy outcomes.
    Mr. Raskin. Well, why do you think that FERC is so 
dominated and captured by the industries it's supposed to be 
regulating? Why don't the regulatory agencies serve the public 
interest rather than the interest of the corporations?
    Ms. Salter. Well, it is certainly the mission of most 
energy regulatory bodies to serve the public interest. That is 
absolutely what they should be doing, and if they are not, I 
would encourage great oversight into that. We know that the 
politics are awash with money from the fossil fuel industry. We 
know that is happening.
    Mr. Raskin. Alright. Thank you that. Mr. Mitchell, what 
measures should be taken to ensure that enforcement agencies at 
all levels are working to protect communities against these 
kinds of predatory environmental harms?
    Mr. Mitchell. The harms, I think, of the oversight, that if 
folks would just do their jobs, if they would actually enforce 
the enforcement and do their jobs, I think we will come to 
resolve and reverse these problems that have impacted 
communities. As you stated, community engagement, community 
involvement, no one wants these, and when you look at it, they 
are going disproportionally through the people of color 
communities. You don't see these types of pipelines going 
through the affluent neighborhoods and communities, impacting 
them. It is always on the backs of those that are burdened and 
the vulnerable communities that are taking the brunt. And this 
is where I am hoping that this oversight would take a look at 
the disproportionate impact in these communities and 
communities of color, and just basically do the job.
    Mr. Raskin. Thank you. Madam Chair, my time is up, but it 
is time for us to act, and thank you for calling this very 
important hearing.
    Chairwoman Maloney. Thank you. The gentleman from Kentucky, 
Mr. Comer, is recognized for five minutes for his questions.
    Mr. Comer. Thank you, Madam Chair. Before I begin my 
questions for Mr. Hawkins, I wanted to correct something that 
my good friend, Ro Khanna, said early on in his opening 
statement when he suggested that China was doing a better job 
than the United States in climate change. That is absolutely 
incorrect. China is the world's biggest polluter. I see very 
little they are doing to change that. And when I finish my 
questions, I am going to have to run to the House floor to 
speak against an environmental bill on the floor now that the 
majority party is trying to pass that will have an adverse 
effect on a lot of union jobs in my district because it would 
shift production from the United States to China, and not 
require China to comply with the same environmental rules that 
we have in the United States. So, this is a big problem we 
have. I think both parties want to protect the environment. I 
am a farmer by trade. I care about the land. The land has been 
in my family for many generations. I want to see it continue to 
be in my family long after I am gone and in better shape than 
when I started farming it. But we have to take into 
consideration the economic effects and the fact that China 
doesn't play by the same rules.
    So, with that, Mr. Hawkins, President Biden's American Jobs 
Plan will be paid for by massive tax increases. Do you believe 
this is the best way to bolster economic growth in America's 
most vulnerable communities?
    Mr. Hawkins. No, I don't, and, again, because those tax 
increases are going to land on the most vulnerable. So, you 
know, when you look at that plan and when you look at what has 
been proposed in terms of the pay-fors, you see significant 
corporate tax increases, and so those corporate tax increases 
make Americans less competitive internationally, for one. And 
two, those taxes are not landing on the corporations 
themselves. Corporations don't pay taxes. Consumers, 
shareholders, and workers pay those taxes: consumers in the 
form of higher prices, workers in the form of decreased job 
opportunities, and shareholders in the form of decreased share 
prices. And so, you know, the pay-fors are the most problematic 
part.
    And when you look at what has been happening in terms of 
inflation, that has been a consistent theme throughout this 
hearing because it is so impactful on the lowest-income 
Americans. You know, we can't level additional tax burden on 
top of that. We can move forward with traditional 
infrastructure, including a lot of what has been discussed by 
the other witnesses today. We can move forward on that 
traditional infrastructure--grid upgrades, roads, bridges--in a 
way that does not increase the tax burden. There are bipartisan 
proposals out there right now to do so.
    Mr. Comer. Great. Let's talk about your opportunity zone 
investments. How much money would you estimate will be 
generated by opportunity zone investments over the next five 
years?
    Mr. Hawkins. So, the IRS indicated that--so far, we are 
about three years into the policy--$24 billion, with a ``B'' 
has come into the Opportunity Funds. These are the vehicles to 
make opportunity zone investments, typically in the case of a 
new operating business or a real estate project that is levered 
up with additional debt. So, the Council of Economic Advisers 
estimates that about $75 billion will come into the opportunity 
zones over the next 10 years, and we are on track to do better 
than that.
    Mr. Comer. And in the remaining time I have, Mr. Hawkins, 
can you describe briefly how your organization serves the needs 
of economically challenged populations?
    Mr. Hawkins. Sure. And so, what we exist to do is to make 
the public aware of the great work that many of our members are 
doing in opportunity zones, but also to advocate and to, you 
know, to come to you all and advocate for reasonable expansions 
of the opportunity zone policy. So, one thing that is relative 
to what we have discussed so far is the prior administration, 
through executive order, coordinated the community development 
resources across government agencies to favor opportunity 
zones. So, a great example of the, you know, $65 million that 
was given out in brownfield remediation funds, you know, over 
about 157 different brownfields, right? A hundred and 18 of 
those brownfields were, by design, opportunity zones, OK? And 
so, Mr. Mitchell, my fellow witness, spoke earlier about 
brownfield remediation in coordination with opportunity zones 
in South Carolina. That was made possible by that executive 
order and coordination. What we would suggest is that this 
committee look into making, through a statutory change, that 
would encourage that coordination across all agencies to really 
buildup community development policies like opportunity zones.
    Mr. Comer. Well, Madam Chair, I will close by saying this. 
I certainly support the opportunity zones. I think that is the 
key to trying to help lift people out of poverty in 
economically challenged areas. We have to have a private sector 
investment in these areas. I believe that government programs 
create traps that keep people in poverty, and I represent a 
very poor white district in America, and there are pockets of 
poverty all over my congressional district. I live in 
Appalachia, and you have situations where people get addicted 
to government programs and they never get out of poverty. So, I 
appreciate that and look forward to more great work from your 
organization in the future. Madam Chair, thank you, and I yield 
back.
    Chairwoman Maloney. The gentlewoman from Florida, Ms. 
Wasserman Schultz, is recognized. Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. Thank you, Madam Chair. Madam Chair, 
yesterday, the White House released interim guidance to begin 
implementing the Justice40 Initiative, and this was a seminal 
moment for the environmental justice movement which has been 
decades in the making. And I want to focus on one aspect, the 
whole-of-government approach enshrined in the Initiative. I 
have tried to embrace this approach on the Appropriations 
Committee. Last year, I proposed a strategy to imbue the 
Federal spending process with a focus on equity and justice, 
and I also proposed a plan to use all 12 appropriation 
subcommittees to combat climate change, because I believe we 
desperately require a whole-of-government approach to confront 
inequality and injustice, as well as the most challenging 
environmental problems of our time. That is why Justice40 
resonates with me. Justice40 has the potential to improve on 
previous Federal environmental justice efforts by adopting a 
coordinated interagency approach that ensures government 
agencies are working in concert.
    My first question is for Mr. Moore. Why is this coordinated 
approach so essential to pursue, but so challenging to 
implement?
    Mr. Moore. I think part of it, Committeewoman, is that even 
in the past, sometimes when we have had good support from 
various administrations, the actual implementation that that we 
were referring to had not taken place within the Federal 
family. And so, then based upon that, the Justice40 approach in 
the interim guidance right now very clearly lays out how those 
Federal agencies need to go about the implementation of the 
Justice40 recommendation, so that is very, very crucial. You 
know that we have been involved in this for many, many years, 
as you have said, and we think that implementation, that 
interim guidance, is crucial to moving forward through Federal 
agencies.
    Ms. Wasserman Schultz. Thank you. I appreciate that 
feedback. Ms. Ndumele, your written testimony seems to suggest 
that the design of Federal grant programs sometimes prevents 
them from reaching the recipients that are most in need. Can 
you give us some examples of how these programs face challenges 
to benefit frontline communities and how they should change?
    Ms. Ndumele. Yes, thank you very much for that question. 
There are many hurdles for disadvantaged communities trying to 
receive grants and other funds from the Federal Government. 
This has to do with weak program criteria, lack of protection 
against community displacement, cumbersome application and 
reporting requirements, and technical assistance gaps in 
communities, as well as capacity constraints at agencies. So, 
CAP, along with others, have suggested some implementation 
recommendations for Federal agencies to consider, and some 
particular ones that I will draw your attention to have to do 
with reviewing and tailoring Federal program criteria to ensure 
they maximize their impact in under-served communities. You 
asked for some examples of particular programs. I will name a 
few. In some cases, this involves loosening eligibility 
requirements and expanding the program scope.
    So, one example of that would be the Weatherization 
Assistance Program, which supports home energy efficiency 
improvements, but a lot of households don't quite have the 
needed repairs to be eligible for the program. And so, 
therefore, it doesn't reach all of the under-served 
communities, and it could better support those communities by 
expanding its scope to include more basic home repairs. The 
inverse problem of that could be if program criteria is too 
loose or there is not enough guidance, then it may not go 
directly to the communities in need, and often programs don't 
have criteria that prevent gentrification and displacement, 
which is also key to effective implementation of this program.
    Ms. Wasserman Schultz. Thank you. I appreciate that. I want 
to shift gears in my final minute to focus on coastal community 
challenges. I represent a densely populated district that 
includes several urban and coastal communities. My South 
Florida district also happens to be squarely in one of the most 
hurricane prone areas in the country, and that is why I was 
encouraged to see the White House and OMB focus on the 
Department of Homeland Security's Flood Mitigation Assistance 
Program in the Justice40 interim guidance that was released 
yesterday. That Flood Mitigation Assistance Program provides 
funding to states, local communities, tribes, and territories 
for projects that reduce or eliminate the risk of repetitive 
flood damage to buildings.
    So, my question for the panel, and you can choose who wants 
to answer, how can we help coastal communities, especially 
diverse, densely populated communities like mine in South 
Florida that are consistently affected by flood damage and 
intensifying storms? I have heard some pundits admonish that we 
should just all move somewhere else, and that is a very 
impractical and privileged opinion. So, I would love of some 
feedback on that, to anyone who chooses to answer.
    Mr. Guerrero. Representative Ms. Wasserman Schultz, thank 
you for the question. I could take a shot at it.
    Ms. Wasserman Schultz. Please.
    Mr. Guerrero. I think rightfully emphasizing the whole-of-
government approach, I think, is really critical, and we would 
not want to create more displaced communities. This is an 
opportunity, I think, in terms of creating jobs and rebuilding 
the infrastructure of this country and the kind of 
infrastructure that we need to protect those communities that 
are going to be impacted by climate disasters in the future. We 
should give people the opportunity to relocate and support that 
if they so choose, but I think there is an opportunity for us 
to actually invest and support those communities for the kind 
of infrastructure they need to be able to protect their 
communities.
    Ms. Wasserman Schultz. Thank you. I appreciate that 
feedback, and my time has expired. Thank you so much. I yield 
back.
    Chairwoman Maloney. Thank you. The gentlewoman from New 
Mexico, Ms. Herrell, is recognized.
    Ms. Herrell. Thank you, Madam Chair, and thank you, 
Committee. This is obviously very eye opening, and my first 
question is for Mr. Hawkins. So, I live in New Mexico. I 
represent a district that employs over 100,000 people in the 
oil and gas industry. I am concerned about the environmental 
justice and impacts it will have. If we were to go completely 
green, what are your thoughts on how would we backfill these 
lost jobs in a state like mine who is so heavily reliant on the 
oil and gas industry as a whole?
    Mr. Hawkins. Right, and I think that is the critical 
element. You know, if the private sector leads us toward 
cleaner forms of energy like, you know, like natural gas and, 
you know, and other technologies, then that transition and that 
backfill will be applied in the process--in the normal 
processes of the private sector. When the government leads this 
process, you are in a situation of picking winners and losers, 
and that is harmful from the standpoint of jobs, but it is also 
harmful from the standpoint of consumers. I mean, we have 
folks--you know, we have tribal communities up in Alaska, for 
instance, that are heavily dependent, in ways that cannot be 
avoided, on air travel, air travel for supply chains, air 
travel for moving workers around. And so, an increase in the 
fuel that is used for those airplanes that is produced in your 
district, you know, the increase in those prices are going to 
negatively impact those communities, many tribal communities, 
in ways that we can't even contemplate down here in the lower 
48.
    Ms. Herrell. Well, that is great because that kind of leads 
me to my next question, because I believe this environmental 
justice is not intended to save our environment as much it is a 
movement for power, because as we diminish the jobs that are 
especially prevalent in New Mexico, what we are doing is we are 
transferring energy independence or energy dependence on China 
and other foreign countries that do not have the same 
safeguards and environmental protections in place as we do in 
America, so this is very concerning to me. My next question 
would be for Ms. Salter. I am sorry. I can't see your name tag 
all the way. I just have a question. Earlier in your response, 
you were saying ``the polluters,'' ``the polluters.'' Can you 
be specific on who are the polluters? Are those the people who 
commuted to work today, rode an airplane, turned on their heat 
or cooling, people that are starting their vehicles, people 
that are driving our economy right now? I mean, who 
specifically are the polluters?
    Ms. Salter. Well, certainly you make an important point 
that we need to think about, you know, there are about 100 
companies responsible for a lot of the pollution.
    Ms. Herrell. Can you give me the name of two or three?
    Ms. Salter. The top 10 of them are international and 
domestic oil companies that are causing----
    Ms. Herrell. Can you give me a specific name?
    Ms. Salter. Oh, well, you know, Chevron is one of those 
companies, and these are the companies that are certainly 
causing the pollution.
    Ms. Herrell. But did you realize that these companies are 
also investing a lot of research and development in lower 
emissions and cleaner air?
    Ms. Salter. What we want to have happen and what we are 
working on in New York state is, you know, the concept of a 
just transition so that we can move away from fossil fuels, but 
make sure that the communities and the sectors that are 
currently dependent on them are not left behind.
    Ms. Herrell. Right.
    Ms. Salter. And we want to have those clean energy 
industries. Right now, China is dominating in many of those 
areas. We want to have that local manufacturing, those local 
businesses there, and we want to support communities through 
that transition.
    Ms. Herrell. Right, and in the transition for clean energy, 
you talked about long-term storage for electricity. Is there a 
way to do that as of right now?
    Ms. Salter. Yes, there is technology available now to pair 
large-scale storage and local renewables to enhance reliability 
and to provide power, absolutely.
    Ms. Herrell. But the cost to the consumer would be 
astronomical because we know that it is more affordable and 
cleaner to utilize, such as, you know, natural gas, so I am 
concerned about the expense. And I personally do not think we 
have a grid that is safe, reliable, and free of China-made 
components, so what about the grid or the ability to actually 
move the electricity to the end user?
    Ms. Salter. You are exactly right. That is what we are 
talking about right now. We have a dirty, aging, and polluting 
grid, and generations now of under-investment in our grid 
infrastructure leaves us not only open to international 
competition, but, you know, as we have seen again and again, 
security, it is not in our national security interest to have 
such a dirty and polluting grid. That is exactly why we need 
the American Jobs Plan to invest in clean, upgraded grid 
infrastructure.
    Ms. Herrell. Thank you, Madam Chair. I yield back. Thank 
you.
    Chairwoman Maloney. Thank you. The gentlewoman from 
Michigan, Ms. Tlaib, is recognized for five minutes.
    Ms. Tlaib. Thank you so much, Chairwoman Maloney, for 
holding this important hearing. Ms. Salter, you know, can a job 
fix cancer?
    Ms. Salter. Can a job----
    Ms. Tlaib. Can a job----
    Ms. Salter. Well, yes, an oncologist----
    Ms. Tlaib. Well, I mean, I am talking about, when people 
say, jobs, jobs, investment, investments, economy, like doing 
all that, can that fix cancer, because that is what we are 
creating is more cancer, more disease, more issues. I mean, 
that is why I keep telling my colleagues jobs cannot fix 
cancer. They can't fix the high amount of public health impact 
that we continue to have when we look away about pollution and 
so much more. I mean, you know, I continue to see this kind of 
denial to understand the human impact, and that is why this 
hearing is so important. And we need to focus on that because, 
when you focus on those numbers and not the facts, then you are 
not focusing on how many people are getting cancer, respiratory 
disease, and so much more.
    I just came back from a PFAS, a press conference. I mean, 
this is forever chemicals in people's bodies. Did you know the 
vaccine is not working in children that have been exposed to 
PFAS? The COVID vaccine, it is rejecting it. So, it is so 
incredibly important to understand, again, we are talking about 
the human cost here, and so it is really important. So, I do 
want to get take us in a different direction, and I think it is 
important. We have heard a lot about opportunity zones, y'all, 
and I am going to tell you I have some issues with opportunity 
zones.
    To start, I like to enter into the record, Madam Chair, an 
article from ProPublica entitled, ``How a Tax Break to Help the 
Poor Went to NBA Owner, Dan Gilbert,'' a billionaire, and 
another article, Madam Chair, Washington Post, titled, ``After 
Nevada GOP Pushed, Treasury Changed Lucrative Policy 
Benefitting One County,'' into the record, if I may.
    Chairwoman Maloney. Without objection.
    Ms. Tlaib. The key question here about opportunity zones is 
that who does it? Who is the opportunity for exactly? Mr. 
Mitchell, I am going to tell you because this happened right in 
my backyard. As the Urban Institute concluded, the opportunity 
zones are providing the biggest benefits to projects with the 
highest returns, which are rarely aligned with equitable 
development. For example, in Detroit, the Trump Administration 
revised its original list of opportunity zones, which are 
supposed to go to poor census tracts, to include one of the 
downtown communities in Detroit that does not meet the poverty 
requirements under the program. Opportunity zones, we are going 
to do affordable housing. Mmh-mmh. These are bougie buildings, 
and they are getting these big tax breaks that are not 
accessible to my residents. The primary beneficiary here was 
billionaire Dan Gilbert, who coincidentally gave three-fourths 
of a million dollars to the Trump Inaugural Committee.
    This is hardly an isolated case. I just talked about 
Nevada. Nevada, a major GOP donor, Lance Gilman, successfully 
lobbied their treasury department to include Storey County in 
the opportunity zone program, despite the fact that the income 
levels were initially deemed too high to qualify for 
opportunity zones. And surprise, surprise, Mr. Gilman made his 
largest political contribution ever in the midst of that 
lobbying effort. So, my colleagues hype up this opportunity 
zone handout, and it is both Republicans Democrats hyping up 
opportunity zones here, and they created billionaires and 
Republican campaign donors. I am telling you, we are currently 
looking at the fact that we have no reporting. We don't even 
know how many jobs they are creating. Did you know that? They 
are not even required to report how many jobs they created. 
This is a capital gains tax break for the rich.
    So, you know, Ms. Ndumele--I am so sorry--can you speak to 
the human cost of generational government-sponsored 
disinvestment in communities of color, and how Justice40 is an 
executive initiative that can seek to rectify some of these 
injustices in place right now?
    Ms. Ndumele. Yes, absolutely. Thank you very much for the 
question. And going back to the focus of Justice40 and 
environmental, economic, and racial justice, we know that 
tribal communities, black and brown communities 
disproportionately suffer the effects and harms of climate 
change. They bear the brunt of dangerous climate impacts, and 
they are also most at risk for not receiving the benefits of 
clean energy. So, what are some of the benefits of Justice40? 
There are several categories of benefits: climate change, clean 
energy and energy efficiency, clean transportation, affordable 
and sustainable housing, training and work force development, 
remediation and reduction of legacy pollution, development of 
critical clean water infrastructure. All of these things would 
benefit communities who are most in need and have experienced 
the most chronic disinvestments.
    Ms. Tlaib. Thank you so much. And I do want to say, as we 
are talking about this, you know, more black neighbors--my 
black neighbors in Michigan died at a higher rate of COVID, 
even though they make up less than 15 percent of the total 
population. Why? Because of preexisting conditions and 
environmental--literally environmental racism. If you look at 
where the high rates are, Madam Chair, of deaths of COVID among 
my black neighbors, it is where they have the polluting 
industry. They are dying at a higher rate. And so, I just think 
it is important when we talk about opportunity zones and other 
things, that we speak this truth that it has been hijacked by 
the billionaires per usual. And I am done. I am done 
subsidizing pollution. I am done subsidizing these 
billionaires. Our residents deserve better. Thank you, Madam 
Chair.
    Chairwoman Maloney. The gentlelady yields back. The 
gentleman from Pennsylvania, Mr. Keller, is now recognized for 
five minutes.
    Mr. Keller. Thank you, Madam Chair, and I would like to 
thank the witnesses for being here today. The United States 
Energy Information Administration reports that domestic energy 
production has grown substantially in the past decade, largely 
thanks to investments in hydraulic fracturing and horizontal 
drilling. Since 1990, the oil and gas industry in America has 
reduced methane emissions by 23 percent, while simultaneously 
increasing production by 71 percent. As of 2019, petroleum and 
natural gas make up nearly 70 percent of the energy we use 
annually.
    The area that I represent in Northeastern and North Central 
Pennsylvania produces up to 10 percent of the Nation's dry 
natural gas on any given day, contributing an enormous amount 
of our economic activity, job growth, and energy savings to our 
local communities. By contrast, and despite billions of dollars 
in taxpayer-funded subsidies, renewable energy's share of the 
consumption market has grown by only four percent in the past 
60 years. America cannot just simply shift from fossil fuels to 
renewables via sweeping Federal mandates. The result would be a 
significant loss of jobs and more reliance on foreign energy to 
power our lives.
    Proposals, such as the Green New Deal, would necessitate 
significant increases in renewable energy, such as hydraulic--
excuse me, hydroelectric, solar, and wind. However, according 
to the American Energy Alliance, the entire world does not have 
the mining ability to produce the required materials. 
Additionally, the Electric Power Institute expects the price of 
electricity to at least double as a result of President Biden's 
energy policies. It is clear that America's energy independence 
will require an all-of-the-above approach to energy that 
employs renewables, such as wind, solar, hydroelectric, to 
complement fossil fuels, which leads me into questions.
    Mr. Hawkins, can you discuss how proposals like the Green 
New Deal and other Federal mandates would impact economically 
distressed communities?
    Mr. Hawkins. Again, the, you know, the primary negative 
impact will be in the cost and the taxes that will be required, 
you know, to foot that bill. Depending on how you specifically 
interpret that proposal, you are looking at a cost between $3 
and $6 trillion, significant tax increases. And, you know, 
again, those are overlaid on folks that are already seeing 
significant--significantly higher energy costs, significantly 
higher gas prices, and inflation across the board, again, like 
a 12-percent sales tax implemented from Congress.
    Mr. Keller. OK. Thank you. U.S. C02 emissions are declining 
while emissions from China, India, and other nations are 
increasing. President Biden, as one of his first acts after 
being inaugurated, got us back into the Paris Climate Accords. 
Any of the other nations in the Paris Climate Accords, have 
they met the C02 emissions in anything that they were supposed 
to meet as a result of those Paris Climate Accords?
    Mr. Hawkins. Not to my knowledge.
    Mr. Keller. Not anywhere that I have been able to find 
either. So, you know, just looking at that, it is an important 
part point to make that nations that are going to be allowed to 
pollute more aren't doing it as well as we are here in America, 
which is certainly not going to help our environment globally 
and help it here in the United States either. Do you believe 
that the proposals like the American Jobs Plan, Paris Climate 
Accords, and others designed to curb emissions will put the 
U.S. at an economic disadvantage?
    Mr. Hawkins. Absolutely.
    Mr. Keller. OK. And anything to elaborate on why you 
believe that?
    Mr. Hawkins. Right. And so, again, you know, it is based on 
a hostility toward an all-of-the-above energy approach. So, all 
of us want energy that is more secure, more affordable to folks 
in distressed communities, and also cleaner. And so, we were 
moving consistently in that direction on all those fronts, you 
know, with a policy that was more oriented toward an all-of-
the-above approach and public/private partnerships. And so, my 
fear would be that a government-led approach, where you are 
picking winners and losers, particularly favoring elements of 
clean energy that do not account for a significant a portion of 
our energy production by megawatt, you know, could be very 
damaging. And, again, the cost and the taxes necessary and that 
tax burden overlaid on an already overburdened American people 
would be devastating.
    Mr. Keller. I think also to note would be the critical 
minerals that would be needed to be mined to produce the 
batteries, and so forth and so on, for all the electricity in 
the switch to the Green New Deal.
    Mr. Hawkins. Absolutely.
    Mr. Keller. Thank you.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentlewoman from New York, Ms. Ocasio-Cortez, is recognized.
    Ms. Ocasio-Cortez. Thank you so much, Chairwoman Maloney. 
You know, another day, another line about Green New Deal 
hysteria, right? But right now, New York City and people in New 
York City can't even see a couple neighborhoods down if they 
are up in a building because of the smog and the smoke from 
wildfires in Colorado and on the West Coast. Isn't that right, 
Ms. Salter?
    Ms. Salter. Well, I won't speak for the Colorado wildfires, 
but even before the wildfires, the smog, the soot, and the 
pollution make it hazy and hard to see, absolutely.
    Ms. Ocasio-Cortez. Mm-hmm. So, I have a pretty simple 
question, and I want to talk about physical infrastructure 
investments that we have made so far, as well as those that we 
are looking to make in the future. When the water comes and 
when the floods come, which communities are going to be 
endangered and vulnerable the most?
    Ms. Salter. We know from past events, including Superstorm 
Sandy that it is absolutely the low-income black and brown 
communities and, in particular, women and children.
    Ms. Ocasio-Cortez. When the fires come, which communities 
do not have--do not have facilities outfitted with HEPA filters 
and other sorts of access to clean air?
    Ms. Salter. Once again, it is low-income communities, 
primarily communities of color.
    Ms. Ocasio-Cortez. When the storms come, which communities 
have the most fragile power grids?
    Ms. Salter. Once again, and, yes, it is our distribution 
system which is the weakest link, and it is low-income 
communities of color, and these are where the investments 
certainly need to be.
    Ms. Ocasio-Cortez. On the flip side, when the fires come, 
what sorts of communities have their homes outfitted with HEPA 
filters as well as their schools or other public facilities?
    Ms. Salter. Anecdotally, I can certainly with confidence 
say that it is the high-income communities that have the best 
school and residential home infrastructure.
    Ms. Ocasio-Cortez. Now, I think it is important for us to 
note this because this is not just about future investments. 
This is about a betrayal from our past because policymakers, 
many of the same ones who are defending the fossil fuel 
industry today----
    Ms. Salter. Mm-hmm.
    Ms. Ocasio-Cortez [continuing]. Also deliberately under-
invested in resilient infrastructure for the communities, some 
of whom they may even represent, for the most vulnerable 
communities in their states and districts. So, one of the 
things that we saw recently was just unprecedented flooding in 
the Detroit area, and particularly in this area of Dearborn, 
Michigan. There was one part of Dearborn that was completely 
flooded--basements, first floors, et cetera--and on the other 
side of Dearborn was fine. You would have thought it was just a 
small storm. Now, what we know is that years ago, the local 
government decided to put almost all of the water pump systems 
in the affluent area of Dearborn, and almost none of the water 
pump systems, which is what brings the water out when it is 
flooding, in low-income, immigrant, working class communities. 
White working class, black, brown working-class communities, 
they had almost no water filtration systems, leaving all of 
their homes to flood. Tell me about what impact that has on 
generational wealth for these communities.
    Ms. Salter. It is a devastating impact, and that is exactly 
why the American Jobs Plan needs to ensure not only early 
action on emissions and co-pollutant reductions in frontline 
communities, but also take into account the cumulative impacts, 
the cumulative impacts of past policy on current wealth, past 
wealth, in addition to health.
    Ms. Ocasio-Cortez. Thank you very much.
    Chairwoman Maloney. The gentlelady's time has expired. Our 
panelists have been here since 10, and we are going to take a 
five-minute recess to accommodate witnesses' requests.
    The committee stands in recess for five minutes. We will 
resume in five minutes. In recess. Thank you.
    [Recess.]
    Chairwoman Maloney. The gentleman from Wisconsin, Mr. 
Grothman, is recognized for five minutes.
    Mr. Grothman. Yes, before I ask a question, I would just 
kind of like to make a statement a little on the pollution 
situation in this country. I think for anybody listening in, 
they may be under the impression that we have an unprecedented 
problem with air and water pollution, that this young 
generation have things so tough. And I think this defeatism is 
kind of dangerous because I am afraid some young people 
watching on C-SPAN are going to just give up on life, given all 
the things we are told about the mess we have.
    I just want to rattle off a couple of statistics. In the 
last 40 years in this country, the amount of carbon monoxide, 
and these are EPA figures, carbon monoxide in the air has gone 
down 75 percent. The amount of lead has gone down 99 percent. 
The amount of nitrogen oxides has gone down 70 percent. VOCs 
have dropped 60 percent, and particulate matter has dropped 64 
percent. I remember growing up and seeing pictures of Los 
Angeles in which it was just fog all the time. Same thing in 
places like Pittsburgh. In my hometown, you couldn't fish in 
the local river, and now there is fish all over the place and 
people are fishing away, which I think is very typical of the 
rivers and urban areas of this country. So, I suppose you can 
always take a little more pollutants out of the air, but we 
have done such a fantastic job over the last 50 years. And 50 
years ago, when I was a young person, nobody was telling 
anybody they couldn't make it in society because of the 
pollution. Now that we have, you know, 70, 75 percent of that 
pollution out of the air and water, it seems ridiculous to tell 
young people how hard they are having it.
    But, first of all, a general question for any one of you 
folks. I believe I heard this morning on the radio, but I don't 
know that I did and maybe I dreamed it, I don't know, that 
inflation has a disproportionate impact on people of color, on 
women. Is that true? Do we know? Does anybody know?
    Mr. Hawkins. It is across the board, it has a 
disproportionate impact on people who are low income, and so 
folks who are people of color are more likely to fall into that 
category. What we will see also is that, for both women and 
people of color, the items that are leading the inflationary 
trend. So, when you look at energy, when you look at gas, when 
you look at consumer goods, and when you look at the ability 
for property owners and others to pass through their 
inflationary pressures to folks in the low-income category, you 
know, you are going to see it disproportionately impacting 
people who are low income, people who are women.
    Mr. Grothman. Right. One of the things that concerns me, 
and I don't know how to look into the future on this, is it 
seems to me on all these issues, which largely involve, you 
know, raising the cost of energy, be it your electric bill, be 
it your gas bill, there is always going to be a conflict 
between the billionaire class in this country--the Bloombergs, 
the Gates, the Cubans, those type of people--and on the other 
hand, your person just struggling to make ends meet. And I have 
always felt, and I want you to comment whether this is true. 
You know, proportionately, the amount that the average guy 
spends for gas in their 2005 Chevy and the amount that is spent 
on a billionaire's Tesla, I mean, as we drive up the cost of 
that energy, it seems to me it hurts the average guy much more. 
So, we have got a policy thing here in which two different 
powerful groups in America, you know, the disadvantaged people 
who maybe don't have as much power and the billionaire class 
who likes to virtue signal, are at odds. Who do you think is 
going to wind up winning that fight, Mr. Hawkins? Is it going 
to be the billionaire class, despite the fact we are so much 
cleaner than we used to be, or is it going to be the poor guy 
who is just trying to make ends meet in his `05 Chevy?
    Mr. Hawkins. Well, hopefully it is not the billionaire 
class. You know, the entire country benefits from affordable 
energy, but particularly folks who are middle and low income 
benefit disproportionately because their energy prices in the 
form of transportation costs or in home energy prices----
    Mr. Grothman. Right.
    Mr. Hawkins [continuing]. Are a much larger percentage of 
that person's overall spending.
    Mr. Grothman. Yes. When I look, I sometimes don't know 
whether a Bill Gates or a Michael Bloomberg knows how much they 
are paying for their air conditioning. They probably have some 
fancy accountant paying their bill. Meanwhile, the person just 
struggling to get ahead as we ramp up that energy cost, they 
see it. Don't you think that is true?
    Mr. Hawkins. Absolutely, and again, across the board, we 
all benefit from more affordable energy, and we shouldn't do 
anything that undermines the affordability of those energy 
prices.
    Mr. Grothman. OK. And remember, kids----
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Grothman. Yes, remember, kids, your grandparents made a 
go of it when nitric oxide was over twice what it is today. But 
thank you, Mrs. Chairman.
    Chairwoman Maloney. Thank you. The gentlelady from 
Missouri, Ms. Bush, is now recognized. Ms. Bush?
    Ms. Bush. St. Louis, and I thank you, Madam Chair, for 
convening this important hearing. I am excited to see 
environmental justice being taking up as a priority by the full 
committee. Too often black neighborhoods are on the frontlines 
of environmental justice as well as brown. In St. Louis, this 
injustice takes the form of dangerously polluted soil next to 
the Skate King Roller Rink and the Herbert Hoover Boys and 
Girls Club, or having our air polluted with bullets and fossil 
fuels, or potentially radioactive water from Cold Water Creek 
regularly flooding our basements, our vegetable gardens, and 
our public school playgrounds.
    The creek is a stunning case. It was contaminated by 
weapons research during the Manhattan Project of World War II, 
and it is still poisoning my community right now. Just this 
month, the body of a 12-year-old girl from our St. Louis 
community was discovered in the creek after she was killed by a 
terrible climate-induced flood. Her name is Alyeyia Carter. She 
was found on the day of her planned 12th birthday party. 
Imagine the unspeakable layer of violence of a dead child and 
her rescue team wading through dangerously contaminated water.
    Around Cold Water Creek, members of our community develop 
rare cancers at alarming rates at all ages. The Departments of 
Energy and Defense have estimated that pollution and some black 
neighborhoods along the creek won't be cleaned up for 20 years, 
and many people aren't even aware of the dangers. It is no 
coincidence that I am a black woman and potentially dangerous 
water flooded my home. This is the reality for so many black 
children, families, and people across St. Louis and beyond. 
Now, imagine layering this government-caused environmental 
disaster on top of climate crisis-induced dangerous heat and 
chaotic flooding. Imagine what these twin crises do to our 
polluted low-income and black neighborhoods, in Hazelwood, 
Missouri, Florissant, and in St. Louis, Missouri.
    Directing 40 percent of climate investments to our 
communities that are being hit by climate change first and 
hardest is not only common sense, but it is a matter of life 
and death. My Environmental Justice Mapping and Data Collection 
Act with Senator Markey would collect, map, and layer data on 
environmental racism to ensure that, at a bare minimum, 40 
percent of funds go to reduce emissions and cleanup the 
communities most in need. My Green New Deal for Cities with 
Congresswoman Ocasio-Cortez will fund climate justice efforts 
in every single community with 50 percent of funds directed to 
frontline communities.
    Guidance released by the White House yesterday gives me 
hope that our momentum toward the goals of Justice40 continues. 
I am eager to ensure that we apply these standards as a minimum 
for all infrastructure reconciliation spending. We need at 
least $400 billion out of every $1 trillion spent to go to 
frontline communities. Part of this would be achieved by 
directing funding to local governments and organizations who 
know where brownfields are in places like St. Louis.
    So, Mr. Moore, briefly, can you explain the challenges we 
expect the Council on Environmental Quality to face in creating 
a climate justice screening tool?
    Mr. Moore. Yes, thank you. Thank you very much, ma'am. I do 
want to say in response to your question, for those of us that 
live in and live around situations of environmental injustice, 
economic injustice, and environmental racism, it amazes me many 
times that there will be climate deniers that speak, too, and 
we are looking at that here in New Mexico. I mean, is it 
because we don't have the complexion for protection? I just 
have to state that, Miss.
    You know, the challenge will be--I think that part of that 
challenge, as I said, will be, as Harold Mitchell expressed, 
the implementation on the ground. And we don't go just bragging 
about, and comments were made earlier, you know, with 
administrations and whatever. But this climate justice, this 
particular moment, this historical moment, where history has 
consistently spoke over and over again around the environmental 
racism and the environmental injustices that our communities 
are imposed by, so yes, it is going to be a challenge. The 
implementation will be the challenge, but we think the 
recommendations made in the interim guidance will help us move 
not only several steps forward, but many steps forward around 
this particular plan.
    Ms. Bush. Thank you. Thank you. Mr. Mitchell, really 
quickly, what do you see as the biggest hurdle for our efforts 
to deliver a minimum of 40 percent of climate investments to 
frontline communities?
    Mr. Mitchell. If there are no strings attached to the 
funding and initiatives that would go down to the states, 
because you would have some in this political climate that will 
basically not allow these resources to come into these 
communities, like we saw before with the ERA Funds. We saw many 
folks, actually with the expanding of Medicaid, where we saw a 
disproportionate number of folks that needed access to 
healthcare, and the pandemic showed just that. Those that 
didn't have that access and a medical home were the ones that 
we saw that tested positive and died. So, without the proper 
oversight and the tools or the strings attached for these state 
and local governments, those funds will not get where they need 
to, and that is on the ground in these fence-line, frontline 
communities.
    Ms. Bush. Thank you. Thank you, and I yield back.
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman from Kansas, Mr. LaTurner, is recognized for five 
minutes. Mr. LaTurner? Thank you.
    Mr. LaTurner. Thank you, Madam Chairwoman. I want to thank 
you for holding the hearing today. The impact on the American 
people of environmental changes and the proper response of the 
Federal Government are important issues that merit a balanced 
and thoughtful response. Unfortunately, the policies proposed 
in the American Jobs Plan and the Green New Deal are hardly 
balanced and thoughtful. Rather than common sense reforms that 
focus our efforts on what we already know works, these 
solutions would eliminate job opportunities across our Nation's 
economy, particularly in our energy, transportation, and 
agricultural sectors, and devastate states like Kansas, who 
depend heavily upon these critical industries.
    First and foremost, it would call for the elimination of 
all fossil fuel energy production, both oil and natural gas, 
within 10 years. The plan calls for transitioning off nuclear 
power, a source of clean and renewable energy produced by 
industry leaders like the Wolf Creek power plant back home in 
my congressional district. Additionally, the Green New Deal 
calls for the eventual end of air travel, a move that would 
threaten nearly 100,000 jobs in my home state with an economic 
impact of over $20 billion. These proposals fail to take into 
account the progress that we have already made in moving toward 
a cleaner energy economy. Per capita emissions were lower in 
2019 than they have been at any time since 1950, and the U.S. 
has been the leading reducer of emissions worldwide since 2005.
    Instead of building on this success, the proposed policies 
favor heavy-handed directives that will cripple our economy. In 
order to achieve the proposed goal of zero percent greenhouse 
gas emissions within 10 years, farmers would have to change the 
way they farm and harvest crops. The cattle industry would 
likely be altogether eliminated. In Kansas alone, the cattle 
industry employs nearly 40,000 people, contributing almost $9 
billion in the state's annual economy, and these workers have 
already made great strides in effectiveness that my colleagues 
on the other side of the aisle seem all too ready to ignore. 
The U.S. beef industry currently produces 18 percent of the 
world's beef with only six percent of the world's cattle, and 
producers have managed to reduce emissions by 30 percent from 
1975 to 2017 without any government mandates.
    Unfortunately, the so-called Environmental Justice Plan 
doesn't explain what will happen to the hundreds of thousands 
of Americans who will lose their job, livelihood, and ability 
to take care of their family after these industries and the 
others are completely wiped out, and no one has indicated 
exactly how all of these changes will be paid for, other than 
calling for a massive investment of funds. Some estimates have 
indicated the cost could be as high as $93 trillion. That would 
cost every American household around $65,000 per year, which is 
more than the average household income in my home state of 
Kansas. The bottom line is that America can't afford the 
Democrats' partisan plan. Rather than forcing through proposals 
that are supported by few outside of the progressive left, I 
would encourage my colleagues to come together to address this 
issue in a way that actually works for all Americans.
    Mr. Hawkins, can you please discuss, in your opinion, how 
the Green New Deal would impact economically disadvantaged 
communities?
    Mr. Hawkins. I think the net effect would be negative, 
again, because of what we discussed in terms of the potential 
cost in terms of jobs, and the fact that these communities are, 
again, the first to be impacted by recession and the last to 
recover in the case of recovery. And so, you know, if you are 
looking at the type of disruption, from a jobs standpoint, that 
the various interpretations of the proposed Green New Deal 
would create, it would be devastating.
    Beyond that, again, the cost. The cost will be--will be in 
higher taxes. The people who are going to be most impacted by 
those taxes are the people who are in the least position to 
avoid those taxes, and so folks in distressed communities are 
going to be, I believe, overall, negatively impacted.
    Mr. LaTurner. Thank you, Mr. Hawkins. Madam Chairwoman, I 
yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Georgia, who has been here the entire time 
listening intently, Mr. Johnson, is recognized for five 
minutes. Thank you for your attendance.
    Mr. Johnson. Thank you, Madam Chair, and thank you for 
holding this hearing. Across the country, we are witnessing 
environmental infrastructure disasters, from the massive Texas 
power grid failure to the Jackson, Mississippi water failure 
that left millions without utilities for a week, or for weeks 
actually. These issues stem from our country's lack of 
investment in environmental infrastructure, and this systemic 
failure disproportionately harms working families in minority 
communities. Mr. Hawkins, I don't see how you can get around 
that, sir, and I question whether or not you have been paid off 
to be here or not by these Republicans, because you talk like 
you have been paid off. But if we are to withstand----
    Mr. Hawkins. Yes sir. I can address that, Congressman, if 
you'd like.
    Mr. Johnson. I will give you a chance, but if we are to 
withstand future climate events, then we must reinvest, 
restore, and redesign our system. Ms. Ndu-mee-kay--I mean, 
excuse me--Ms. Ndumele, what does a true systemic rebuilding of 
America--of American infrastructure, a rebuilding of American 
infrastructure, what does that look like and why is that 
investment critical in the fight to achieve both racial and 
economic justice?
    Ms. Ndumele. Thank you for your question. I will start with 
the last part about why this is necessary for environmental, 
racial, and economic justice. From extraction, to refinement, 
to burning fossil fuels and other pollutants, environmental 
hazards are absolutely disproportionately threatening the 
public health of communities of color at every turn. Pollution-
generating industrial facilities are concentrated in black and 
brown communities. Heavily trafficked roads and highways, many 
of which were built near or deliberately through black 
communities and brown communities, pump a constant cloud of 
pollution from cars and diesel fuel trucks. There has been 
chronic disinvestment in these communities and in 
infrastructure ranging from jobs, housing, parks, and the like.
    A recent study found that fine particulate matter, the 
deadliest air pollutant emitted by almost every major fossil 
fuel, disproportionately affects black, Latino, indigenous, and 
Asian-American communities regardless of zip code and income. 
And what we are seeing is that much of this is the result of 
government policies and structural and systemic racism within 
economic and infrastructure policies. And so that is why the 
Justice40 Initiative is so important because it is a whole-of-
government approach to right these wrongs and to address the 
systemic injustices that have plagued these communities, and 
cumulatively plagued these communities through years and 
decades, and, in some cases, centuries of disinvestment and 
discrimination.
    Mr. Johnson. Thank you. Mr. Guerrero, I want to thank you 
for highlighting my Stronger Communities Through Better Transit 
Act in your written testimony as a solution to help create 
family sustaining jobs that address equity and community needs. 
What do you see as the merits of that legislation to capture 
communities that are excluded from Federal infrastructure 
planning?
    Mr. Guerrero. Thank you, Representative Johnson. Yes, I 
think it is a tremendous example of what potential we have and 
what we can do in rebuilding our communities to address 
environmental justice and inequity. The fact is that supporting 
operations is super important, but public transit is one of 
those areas and industries that creates good jobs throughout, 
from operations and maintenance, manufacturing, et cetera. The 
fact that we can address some of the transit deserts in this 
country and give access to people to get to work, that helps to 
lift them up economically as well, so there are just so many 
benefits, both economically and if we electrify the system and 
make it much more climate friendly. There is just no end, I 
think, to the potential of what building out public transit can 
do in this country, and really commend you for your bill.
    Mr. Johnson. OK. Thank you. Mr. Hawkins, which corporations 
paid for your travel to D.C. today to testify in this hearing?
    Mr. Hawkins. I paid for my own travel, Congressman, and 
what is important to note here is, you noted these Republicans 
covering my travel. Congressman, I am a registered Republican, 
and I am very proud of the work that I did as tax counsel for 
Senator Tim Scott of South Carolina, covering both his tax and 
trade portfolio, advising him throughout all of tax reform, and 
advising him through the renegotiation of NAFTA as South 
Carolina is the third most trade dependent state in this 
country.
    Mr. Johnson. And you guys----
    Mr. Hawkins. If you know me and you read my bio----
    Mr. Johnson. You guys impress me as being deniers of 
systemic racism, and I have got a real problem with that. And 
with that, I yield back.
    Chairwoman Maloney. The gentleman yields back, and the 
gentleman from Texas, Mr. Fallon, is now recognized. Mr. 
Fallon?
    Mr. Fallon. Yes, ma'am. Thank you, Madam Chair. I 
appreciate it. Can you hear me?
    Chairwoman Maloney. I can hear you, but I can't see you.
    Mr. Fallon. Oh, OK. Let me do that. The video should be on.
    Chairwoman Maloney. OK. I see you now. You are recognized.
    Mr. Fallon. OK. Thank you. You know, I ask myself what this 
committee hearing today was about, and I thought long and hard 
about it. It seems to be labels and labeling. Some in the 
political arena, and particularly today, are excellent, they 
excel at labels, and they give flowering aims to certain bills 
and legislation that oftentimes mask their true intent and 
their actual purpose and impact. So, what is this hearing 
really about, and it seems to be labeling America in 2021 as 
hopelessly racist. And how can a systemically racist society be 
redeemed? Through a massive redistribution of wealth. How can 
the poor be uplifted and their circumstances be improved? 
Apparently, some believe not by the virtues of hard work, and 
determination, and education, and private investment, and free 
enterprise. No, only the heavy-handed use of tax dollars by the 
government can these ills be solved. Central planning at its 
finest.
    So, it is not only that some people believe that society is 
inflicted with systemic racism and unprovable assertions, like 
unconscious bias, but we have learned in the past year or so 
that some believe that COVID, a virus most likely originating 
from Wuhan, China, was racist, and fossil fuels being racist, 
the climate being racist, and today there is an argument to be 
made that pollution apparently is racist. And where is the 
actual hard data that would stand up to the scrutiny of peer 
review and employ randomized sampling and scientific 
methodology? Well, in page 1 of our background material it 
said, ``People of color are disproportionately exposed to 
pollution from a wide range of sources. Black Americans, and, 
to a lesser extent, Hispanic and Asian Americans, all have a 
higher risk of premature death as a result of pollution,'' and 
they cite a study from the American Lung Association. So, I 
read that study found, and the study, it diverged because it 
said that income did not drive the difference, and then in the 
very next paragraph, it said socioeconomic position also 
appears tied to greater harm from air pollution, so I don't 
know which one it was. And then in this very short information 
that was cited in a footnote, they use the word ``may'' or 
``could'' 10 different times, and then contradicted their whole 
conclusion by saying, ``However, since few rural counties have 
monitors, the primarily older, non-Hispanic white residents of 
these counties lack information about air quality in their 
communities.'' So, this seems to be junk science at its finest.
    So, the argument could be made, you know, these folks on 
the other side of the aisle, many say that white privilege is 
real. So, if in the United States white privilege was a 
reality, if you break Americans down demographically, who would 
be at the top of the economic food chain? It would clearly be, 
if you believe in white privilege, it would be white Americans 
on average. But when you break us down demographically and use 
data and science, the congressional Research Service found in 
2019, in median incomes, the top demographic, ethnic or 
demographic, was Indian Americans, Asian-Indian Americans, with 
an average of a $120,000 median income. Asian Americans were 
next, not whites. Asian-Americans. So, Indian-Americans make 57 
percent more on average than white Americans. Asian Americans, 
it was $98,174. They make 30 percent more than white Americans. 
Then coming in third were white Americans at $76,000, Hispanic 
Americans at $56,000, and black Americans at $45,400. So, if 
there is white privilege, white folks are incredibly bad at it.
    Mr. Johnson. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Fallon. No, I do not yield. I do not yield. I have five 
minutes. I am going to take it, sir. Then----
    Mr. Johnson. That is what you are so afraid of.
    Mr. Fallon. Well, I didn't interrupt you. What are you 
afraid of? Ma'am, I would reclaim my time.
    Chairwoman Maloney. The time belongs to the gentleman from 
Texas.
    Mr. Fallon. Thank you, Madam Chair. So, what we have here 
is when you look at these demographics, you know what the one 
consistent thing is? It is not race. It is education levels. 
Indian Americans, on average, are the most educated. Then who 
is next? Oh, the group that comes in second, Asian Americans. 
Who is third? White Americans. Who is fourth? Hispanic 
Americans. Who is fifth? Black Americans. This is about 
education in America. There are 22 million white Americans that 
live in poverty in this country. There are 21 million black 
Americans that are middle-class or above. Let focus more on 
data and facts and far less on emotions and suppositions. Madam 
Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Maryland, Mr. Sarbanes, is recognized for five 
minutes.
    Mr. Sarbanes. Thank you very much, Madam Chair. I 
appreciate the opportunity. I want to explore this concept of 
cumulative impacts. Ms. Ndumele, can you explain what the term 
``cumulative impacts'' means and why they are so dangerous for 
minority communities?
    Ms. Ndumele. Thank you for the question. In terms of 
cumulative racial impacts, we are talking about the ways that 
various policies have compounded over time to 
disproportionately impact people of color. In response to some 
of the questions that were just raised, there has been a long 
history of systemic and institutional racism that has led to 
the concentration of dangerous pollutants in black and brown 
communities. And these type of government policies that are 
facts and data, ranging from redlining, discriminatory housing 
and lending practices, to chronic disinvestment in equitable 
and climate resilient infrastructure in black and brown 
communities, to Federal highways that tore through the heart of 
these communities and further cut them off from economic 
opportunities, to inequitable access to high-quality schools, 
jobs, financial services, banking. All this has led to high 
levels of segregation, environmental, and economic injustices, 
and a persistent and widening racial wealth gap.
    And I think part of what is important about the idea of 
``cumulative'' is that this is a generational problem. This is 
centuries of discrimination that is then passed on to each 
generation. One of the concepts of wealth is that interest 
compounds to the benefit of the wealthy in the same way that 
detriment compounds to the detriment of individuals who have 
been systemically deprived of wealth--the wealth accumulation 
and maintaining wealth--and passing it on to the next 
generation.
    Mr. Sarbanes. Thanks very much, and I appreciate your 
pointing to kind of the generational accumulation of this 
impact. But let's talk about it in the specific context, for a 
moment, of how policy we make gets applied when it comes to the 
granting of permits, things of that nature. I will give the 
example of there is, as we all know, this stretch--85-mile 
stretch along the Mississippi River between Baton Rouge and New 
Orleans where there are around 150 fossil fuel and 
petrochemical plants that are pumping out pollutants by the 
hour. The air is filled with toxicity. Communities around the 
plants face extreme cancer risk. In fact, this stretch of land, 
as we know, is referred to as Cancer Alley.
    Poor communities across the country are surrounded by 
hundreds of giant polluting plants, but right now this is all 
legal under the Clean Water Act and the Clean Air Act. How is 
that possible? It is possible because the law actually doesn't 
require consideration of the cumulative impact before a 
governing body can grant a permit for an individual plant, 
which cuts directly against the spirit of what we are trying to 
present here today with the hearing. So, Ms. Salter, how does 
this policy failure, in your view, open the floodgates for 
companies to target poor communities and communities of color?
    Ms. Salter. Well, there are many things that allow private 
developers to target communities of color. Certainly, a failure 
to consider cumulative impacts means that solutions that are 
brought to bear are incomplete and don't adequately cover what 
is needed for the remediation of harm, or adequately consider 
what is needed going forward on policy, certainly.
    Mr. Sarbanes. Thanks very much, and even as we sort of try 
to push against the negative cumulative impacts when we think 
about environmental justice and how we can bring the Justice40 
Initiative to embrace these kinds of efforts, we can also think 
about the positive cumulative impact that we can put together 
in the environmental arena, particularly as it impacts poor 
communities across the country. I am very proud to have worked 
with other members to lead a bipartisan bill called Tackling 
Residential Energy and Economic Savings Act, or the TREES Act, 
which would provide resources to help homeowners plant more 
trees, with a focus on communities that have traditionally 
lacked that canopy, that tree cover, which is so critical. We 
certainly are seeing data coming back every minute now with 
these heatwaves across the country what that means, 
particularly in urban areas where you lack canopy. So, we can 
both address and, I think, overcome some of these cumulative 
negative impacts, but also think creatively about how to 
establish a kind of positive loop here, positive feedback, and 
deal with these issues of environmental justice. Thank you very 
much, Madam Chair. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
Gentlelady from Illinois, Ms. Kelly, is now recognized for five 
minutes. Ms. Kelly?
    Ms. Kelly. Thank you, Madam Chair. In my district in 
Chicago, the 10th Ward has faced issues around pollution far 
too often. On the surface, we have what we need to overcome 
climate change, create jobs, and combat inequality. We have the 
science. We have the technology. We have the mandate. So, what 
is the holdup? Simply put, we need the Federal Government to 
catch up with states that are leading the way. We need to use 
the tools that states have already developed to take the 
cumulative impacts of pollution into account in every decision 
so we can implement fundamental environmental protections. Mr. 
Moore, you are one of the chief drivers behind the movement to 
take cumulative impacts into account. How do cumulative impacts 
affect our communities?
    Mr. Moore. Well, thank you very much, ma'am. I think if we 
look at--if we take several examples, one would be the example 
of Manchester in the Houston area when we are discussing the 
cumulative impact. Another is if we take Mossville, Louisiana, 
for example, and the impact on our largely African-American 
community in Mossville. Alaska, Puerto Rico. We could go on and 
on and on and list the states. The cumulative impact is 
crucial, and that is why I had stated earlier that the EJ for 
All Act is crucial additionally in terms of supporting and 
backing up many of the recommendations that are made through 
the Justice40. So very, very clearly, for those that live 
around these facilities, fence-line communities that live 
around many of these facilities are very highly impacted by air 
contamination, water contamination, and soil contamination. 
Thank you very much.
    Ms. Kelly. And what does government miss without a 
comprehensive approach to measuring the true impact to 
communities?
    Mr. Moore. Very definitely I would say to that, that we 
have this historical moment to repair much of the environmental 
injustice, and then, based around that then, the combination--
the combination of these different programs and projects coming 
together are crucial to assist in repairing the damage that has 
been done in our communities.
    Ms. Kelly. Thank you. Ms. Salter, how can government 
agencies and corporations, from renewable energy development 
authorities to public utilities, speed up a transition to a 
just renewable economy?
    Ms. Salter. Well, first, I will say, an example from New 
York is that we need to take early action on prioritizing those 
emission and co-pollutant reductions in disadvantaged 
communities. We need to take the lead on doing that, and a lot 
of the things that we need to really start focusing on doing 
really are very common-sense measures. We need to be doing 
accounting to understand where money is flowing. We need to be 
doing monitoring to understand what our baseline is for 
pollution so that we can systematically move toward 
remediation, repatriation. This is something that we can begin 
now. We should begin now. Should have been done.
    Ms. Kelly. Thank you so much. Finally, Justice40 provides a 
centralized interagency approach that will allow us to identify 
cumulative impacts and ensure investments to get where they are 
needed. They will also bring government decision-making up to 
speed with the very best in epidemiology and environmental 
medicine. I am proud to support the Justice40 Initiative as 
championed by the White House and local leaders, and I do look 
forward to the Oversight Committee's continued engagement to 
make sure we get this done. If we get it right, it will truly 
be transformational in delivering long-overdue resources 
directly to the people and communities primed to lead the way 
to a stronger, fairer, more prosperous America. Thank you so 
much and thank you for your patience. I yield back.
    Chairwoman Maloney. Thank you. The gentlelady from 
Massachusetts, Ms. Pressley, is recognized.
    Ms. Pressley. Thank you, Chairwoman Maloney. Extreme heat 
kills more Americans every year than every other weather-
related disaster, and, heatwaves, because of climate change, 
are growing in intensity and frequency. As the climate crisis 
continues warming the planet, some communities are suffering 
more than others. If folks are tired of us pointing that out, 
imagine how tired people are of actually living these disparate 
realities. This is especially true in my district, the 
Massachusetts 7th. Across neighborhoods predominately comprised 
of low-income people of color, from Roxbury to Chinatown, to 
Chelsea to East Boston, the intense heatwaves are longer, 
hotter, and more frequent than in whiter, more affluent 
neighborhoods. I might also add they have close proximity to 
highways. They are environmental--communities that 
disproportionally bear the brunt of environmental injustices, 
proximity to toxic waste, and also a lack of tree canopies.
    I ask for unanimous consent to enter a Boston Globe article 
titled, ``Boston's Heat Islands Turn Lower-Income Neighborhoods 
From Hot to Insufferable,'' by David Abel into the record.
    Chairwoman Maloney. Without objection.
    Ms. Pressley. It is no coincidence--I want to underscore 
that--it is no coincidence that the urban heat island effect is 
more pronounced in the same neighborhoods--the same--that have 
been historically redlined. Ms. Salter, yes or no, would you 
call this racism?
    Ms. Salter. Absolutely, I would call it racism, 
segregation, environmental degradation, demonization, 
dehumanization, leading to sacrifice zones and disparate 
environmental effects to people of color in particular.
    Ms. Pressley. Thank you. And given all of those things, the 
fact is that severe heat intensity disproportionately impacts 
black, Hispanic, Latinx, and Asian communities because they are 
forced to live in densely packed, highly polluted areas. 
Moreover, these neighborhoods lack significant green space and 
tree cover, which can mitigate these high temperatures. Mr. 
Mitchell, how can Federal investments as part of the Justice40 
Initiative mitigate the extreme heat crisis impacting 
communities of color?
    Mr. Mitchell. An across-the-board investment, No. 1, from 
HUD and a couple of the other agencies that can address those 
issues, that from a lack of investment in the past, is pretty 
much where and why we are where we are at right now, looking at 
those investment opportunities of addressing these impacts. It 
is going to get worse. What we see with the heat, the storms, 
the rising sea levels, all of this is going to get worse. And 
so right now, it is a point of investing in the resiliency that 
is needed in most of these communities, and this is what 
Justice40 will be able to do. And those that are on the ground 
at the state and local level, they know the problems that they 
are facing. This pandemic has stripped local governments, and 
right now this would be the springboard and the shot to address 
these injustices in black and brown communities in order to 
inject the right type of resilience in our black and brown 
communities that have been disproportionately not invested in 
before.
    Ms. Pressley. Thank you. And, Ms. Ndumele, your written 
testimony includes several recommendations which describe the 
intersectional harms of the climate crisis, for example, social 
determinants of health, like where someone lives and where 
someone works, are directly impacted by environmental policies. 
Ms. Ndumele, can you provide some examples of how environmental 
policy decisions by lawmakers may on their face not appear to 
be racist, but, in fact, disproportionately harm communities of 
color?
    Ms. Ndumele. The broader point I would underscore is what 
the prior witness just pointed to, which is where we have 
energy efficient and resilient investments, and the chronic and 
lack of investment in those opportunities in communities of 
color has led to this situation. But it is also something where 
we have the opportunity now to turn the tide and make more 
equitable investments in the communities that so sorely need 
it.
    Ms. Pressley. And, you know, I was speaking a moment ago 
about how none of this is naturally occurring. It is no 
coincidence. It is by design. I think it has everything to do 
with divestment, under-investment, policy violence. Mr. 
Mitchell, as a former legislator and an environmental justice 
community leader, do you think that there are ways that 
policymakers will be better at what they do if they have the 
tools that demonstrate how their decisions impact marginalized 
communities?
    Mr. Mitchell. I would say, yes, if they have the tools, and 
currently, right now, there are many that are looking, 
especially with this Justice40 oversight that we have 
introduced in South Carolina and some other states that are 
looking to adopt, whether it is through executive orders 
through their Governors or the legislative process itself, of 
being able to get these resources. And the push of Justice40 of 
what it would do to these states and local governments, they 
are desperately looking for this. And the proper oversight of 
this committee to put just the right oversight in itself, of 
getting these resources down, is what they are desperately 
looking for. Just like the citizens that most of you all 
represent, legislators and Governors are actually depending 
upon Justice40 because we have never seen this type of 
investment before.
    Ms. Pressley. Thank you, Mr. Mitchell. I am encouraged by 
the Biden-Harris Administration's efforts to prioritize these 
frontline communities. We need these investments now. Thank 
you.
    Chairwoman Maloney. The gentlelady yields back, and before 
I close, I want to offer the ranking member an opportunity to 
offer any closing remarks he may have. Ranking Member Comer, 
you are now recognized.
    Mr. Comer. Thank you, Madam Chair, and, again, I want to 
thank all the witnesses who participated in the hearing today. 
I think there are many areas of agreement with respect to how 
to best proceed with climate change policy between the 
Republicans and Democrats. I would love to have situations 
where in the House, when we look at legislation, we sit down 
and try to work together in a bipartisan way, like the 
bipartisan group of senators are trying to do, despite Senator 
Schumer's efforts in the Senate right now on infrastructure. 
So, I think there are areas that we can agree on but we have to 
be mindful of the fact that any type of legislation we do, we 
have to be mindful of the fact that China and other countries 
are going to continue to be polluters. And we have to ensure 
that we have policy, whether that be led by President Biden or 
John Kerry--we still don't know exactly what John Kerry's role 
is as climate czar--we need to make sure that China, and India, 
and other countries that are manufacturing competitors of ours 
that have the potential to take jobs away from the United 
States, we have to make sure that we are playing on a level 
field.
    And with respect to the opportunity zones, you know, I 
think most Republicans support that. Most Republicans believe 
that the best way to get someone out of poverty is to create an 
environment where that person has access to a good-paying job. 
We have a scenario in America now where there are over 8 
million jobs available, so I believe it is a great time in 
American history to focus on getting people off welfare, off 
extended unemployment, and into the work force into good-paying 
jobs. And we have to have private sector investment in under-
served communities and lower-income communities, and 
communities that have, quite frankly, been left out, for 
whatever reason, of private investment before. So, I think 
there are areas where we can work together on this issue moving 
forward.
    And, again, I want to thank the witnesses who came here 
today. And, again, Mr. Hawkins, thank you for all the great 
work you have done and the work with the Oversight Committee in 
the past. Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back. And I, 
first, in closing want to thank all of our panelists. It has 
been a long day. You provided very, very insightful and 
thoughtful testimony for all of us, and I want to commend my 
colleagues for participating in this very important 
conversation. We now find ourselves at the end of a very long 
hearing, but the beginning of our work to implement the 
Justice40 Initiative and to turn the new White House guidance 
into reality. I particularly want to thank the panelists that 
participated in framing the Justice40 Initiative, working with 
the Biden Administration, working with their communities to 
bring this idea to the white House.
    The testimony we have heard today has been devastating: 
lives torn apart, communities poisoned, children sick, and 
countless Americans left behind. Yet some of my Republican 
colleagues have said that this hearing was a waste of time, in 
so many words. Their argument essentially is that fixing 
climate change is simply too hard and too expensive or 
shouldn't be thought about at all. To them I say the cost of 
inaction is far higher. It is a climate catastrophe if we do 
not act.
    The signs of this are already around us. Our cities are 
being attacked with floods. Our towns are choked by fire. Ms. 
Salter stated in her testimony that in my home city of New 
York, in certain communities, destructive particles, known as 
PM 2.5, kill 3,000 New Yorkers each year. And last year, this 
committee issued a report projecting as many as 413,000 New 
Yorkers could die prematurely if we don't reduce air pollution 
and tackle climate change, and this is the story all across 
America. We can fix this and strengthen the American economy 
with a strong approach to environmental justice. As our 
witnesses told us today, Justice40 is an opportunity to combat 
the climate crisis, create jobs, and advance racial and 
economic equity.
    The data shows that action on climate change will not only 
save lives, but it will save the U.S. economy over $700 billion 
or more each year. So, we have answers. We have technology. We 
just need the political will to act. So, I urge all my 
colleagues, Republicans and Democrats, to work together to 
ensure that the ongoing climate emergency does not become a 
climate catastrophe. Again, I thank so many of our panelists 
and my colleagues for their life's work.
    Whoa, I have got to say something very important, that, 
without objection, all members will have five legislative days 
within which to submit extraneous materials and to submit 
additional written questions for the witnesses to the chair, 
which will be forwarded to the witnesses for your response. I 
ask our witnesses to please respond as promptly as you are 
able.
    Chairwoman Maloney. And with that, this very long hearing 
is adjourned.

                                 [all]
</pre></body></html>
